APPENDIX

INDEX TO APPENDICES
Appendix A

Opinion of the Court of Appeals of Maryland
(June 30, 2020) ........................................................................... App. 1

Appendix B

Opinion of the Court of Special Appeals of Maryland
(September 25, 2019) ............................................................... App. 46

Appendix C

Order of the Circuit Court for Baltimore County
(June 13, 2018) ......................................................................... App. 72

Appendix D

Oral ruling of the Circuit Court for Baltimore County
(June 13, 2018) ......................................................................... App. 74

Appendix E

Oral ruling of the Circuit Court for Baltimore County
(July 20, 2018) .......................................................................... App. 85

Appendix F

Statutory Provisions Involved ................................................. App. 88

i

Pablo Javier Aleman v. State of Maryland
No. 60, September Term 2019
Criminal Procedure – Interstate Compacts – Interstate Agreement on Detainers –
Temporary Custody of Prisoner. When a detainer based on pending criminal charges in
one state is lodged against a person serving a prison sentence in another state, the Interstate
Agreement on Detainers (“IAD”) provides for the transfer of the prisoner from the
jurisdiction of incarceration to the “temporary custody” of the jurisdiction where charges
are pending. That temporary custody is for the purpose of resolving those charges, after
which the prisoner is returned to the place of incarceration. Temporary custody under the
IAD does not encompass a commitment of the prisoner to the Department of Health under
Maryland Code, Criminal Procedure Article, §3-112 (if the charges are resolved by a
verdict of “not criminally responsible”) before the prisoner is returned to the state of
incarceration.
Criminal Procedure – Interstate Compacts – Interstate Agreement on Detainers –
Application to Defendant Found Not Criminally Responsible. Article VI(b) of the IAD
states that the IAD and its remedies do not apply to “any person who is adjudged to be
mentally ill.” A verdict of “not criminally responsible,” which is a finding that the
defendant was mentally ill at the time of the crime, does not by itself trigger Article VI(b),
as it does not necessarily relate to the defendant’s current mental status.

App. 1

Circuit Court for Baltimore County
Case Nos. 03-C-18-006040 & 03-K-16-006061
Argument: March 10, 2020

IN THE COURT OF APPEALS
OF MARYLAND
No. 60
September Term, 2019
_____________________________________
PABLO JAVIER ALEMAN
V.

STATE OF MARYLAND
_____________________________________
Barbera, C.J.,
McDonald
Watts
Hotten
Getty
Booth
Biran,
JJ.
______________________________________
Opinion by McDonald, J.
Watts and Getty, JJ., dissent.
______________________________________
Filed: June 30, 2020

Pursuant to Maryland Uniform Electronic Legal Materials Act
(§§ 10-1601 et seq. of the State Government Article) this document
is authentic.

Suzanne Johnson
2020-06-30 10:35-04:00

Suzanne C. Johnson, Clerk

App. 2

This case calls upon us to construe the Interstate Agreement on Detainers (“IAD”).
The IAD is a congressionally-sanctioned compact among the states designed to facilitate
the prompt disposition of a detainer lodged by one state against a person incarcerated in
another state. In particular, the IAD allows for the temporary transfer of the prisoner from
the state of incarceration to the state in which charges are pending, upon the request of
either the prisoner or the prosecuting jurisdiction.
Shortly after commencing an 11-year sentence in Ohio for felony assault, Petitioner
Pablo Javier Aleman requested a transfer under the IAD to Maryland where a murder
charge was pending against him in the Circuit Court for Baltimore County. After he arrived
in Maryland, Mr. Aleman pled guilty to second degree murder but, as permitted by
Maryland law, requested a jury trial on the issue of criminal responsibility. The jury
returned a verdict of “not criminally responsible.” Such a verdict ordinarily requires that
a defendant be committed to the Department of Health for treatment or released. However,
the State maintained that, because Maryland had obtained only temporary custody of Mr.
Aleman from Ohio, the IAD required that he first return to Ohio to finish his sentence. Mr.
Aleman sought to remain in Maryland, but the Circuit Court denied his petition for habeas
corpus seeking such relief. Mr. Aleman appealed and the Circuit Court stayed his return
to Ohio, as well as a commitment to the Department for treatment, pending his appeal.
On appeal, Mr. Aleman argued that the Maryland statute providing for commitment
to the Department superseded the State’s obligation under the IAD to return him to Ohio.
He also argued that the not criminally responsible verdict exempted him from the IAD by
the terms of the compact itself. The Court of Special Appeals rejected both arguments and,

App. 3

after carefully analyzing the IAD and other relevant statutes, affirmed the Circuit Court’s
denial of Mr. Aleman’s habeas corpus petition.

We agree with that analysis and

disposition.
I
Background
This case concerns the intersection of two laws:

(1) an interstate compact

concerning the disposition of detainers based on criminal charges – the IAD – codified in
Maryland as Maryland Code, Correctional Services Article (“CS”), §8-401 et seq., and (2)
the State law concerning the consequences of a not criminally responsible verdict, codified
as Maryland Code, Criminal Procedure Article (“CP”), §3-112. To place the facts of this
case in their legal context, we first outline the provisions of the IAD and the State statutes
concerning the mental health status of a defendant in a criminal case, including CP §3-112.
A.

The Interstate Agreement on Detainers
1.

Interstate Detainers

As pertains to the IAD, an interstate detainer has been described as “a notification
filed with the institution in which a prisoner is serving a sentence, advising that he is wanted
to face pending criminal charges in another jurisdiction.”1 Prosecuting authorities in the

Stone v. State, 344 Md. 97, 108 (1996) (quotation marks and citations omitted).
Although the IAD itself does not define “detainer,” congressional reports concerning the
IAD used this definition. See H.R. Rep. No. 91-1018 (1970); S. Rep. No. 91-1356 (1970).
In other contexts, a detainer may be based on a pending charge for violation of parole or
probation or a sentence already imposed against the prisoner in another jurisdiction, as well
as pending criminal charges. See Carchman v. Nash, 473 U.S. 716, 719 (1985). The IAD,
1

2
App. 4

jurisdiction where the charges are pending may file a detainer with the institution in the
jurisdiction where the prisoner is incarcerated to ensure that the prisoner, upon completing
the term of incarceration, will be available to answer the pending charges.
Prior to enactment of the IAD, there was no uniform method for managing an
interstate detainer and resolving the charges on which it was based. Moreover, a detainer
could be lodged without proof of the underlying charges, a judicial officer was not involved
in issuing it, and the filing of a detainer did not obligate the jurisdiction that lodged it to
take any further prosecutorial action. Pitts v. North Carolina, 395 F.2d 182, 187-88 (4th
Cir. 1968). As a result, there sometimes arose “a practice of filing detainers based on
untried criminal charges that had little basis.” Carchman v. Nash, 473 U.S. 716, 729
(1985). This created the potential for abuse in which a detainer could be lodged against a
prisoner, adversely affect the circumstances of the prisoner’s current incarceration, 2 and
later be withdrawn as the prisoner came to the end of that sentence. Even apart from the

however, pertains only to detainers based on untried indictments, informations, or
complaints.
2

A congressional report summarized the concerns about the potential deleterious
impact of an unresolved detainer that led to the creation of the IAD:
[A] prisoner who has had a detainer lodged against him is seriously
disadvantaged by such action. He is in custody and therefore in no position
to seek witnesses or to preserve his defense. He must often be kept in close
custody and is ineligible for desirable work assignments. What is more, when
detainers are filed against a prisoner he sometimes loses interest in
institutional opportunities because he must serve his sentence without
knowing what additional sentences may lie before him, or when, if ever, he
will be in a position to employ the education and skills he may be developing.
S. Rep. No. 91-1356 (1970).
3
App. 5

effect of a detainer on a prisoner’s treatment in the place of incarceration, there was also a
concern that the charges on which a detainer was based should be resolved “before the
passage of time has dulled the memory or made witnesses unavailable.” S. Rep. No. 911356 (1970).
2.

Adoption of the IAD to Reform the Interstate Detainer System

In 1948, the Joint Committee on Detainers (“Joint Committee”), an ad hoc group of
law enforcement and corrections associations, was formed to address the problems posed
by the detainer process. The Joint Committee issued a report that recommended certain
basic principles for the use and disposition of detainers. Among those basic principles
were that detainers should be disposed of “as promptly as possible,” that “[n]o prisoner
should be penalized” as a result of a pending detainer until it had been investigated and
found valid, and that jurisdictions should observe principles of comity in settling detainers
and disposing of pending charges. See Council of State Governments, Suggested State
Legislation, Program for 1957, at 74-75 (1956) (“Council of State Governments Report”).
With respect to the transfer of a prisoner from the place of imprisonment to the place where
charges were pending, the Joint Committee included the following basic principle:
There should be assurance that any prisoner released to stand trial in
another jurisdiction will be returned to the institution from which he was
released. An important cause of long-standing detainers is the presence of
unsettled charges pending against a prisoner held by another jurisdiction. If
the charges appear to be valid and if the individual is to be brought to trial
before completion of his sentence, then it is essential that the institution
holding him in custody be assured of his return after the trial has been
completed. Unless there is such assurance, many jurisdictions will
understandably hesitate to cooperate.

4
App. 6

Id. at 75 (emphasis in original). The principles stated by the Joint Committee served as the
foundation of the IAD when, a few years later, the Council of State Governments drafted
legislative proposals concerning detainers, including the IAD.3 See id. at 78-85.
Congress had assented in 1934 to the creation of such a compact. See 4 U.S.C.
§112(a); see also Cuyler v. Adams, 449 U.S. 433, 438-42 & n.9 (1981).

As a

congressionally-sanctioned compact, the IAD falls within Article I, §10, cl. 3 of the United
States Constitution and thus qualifies as a federal law.4 Id. Forty-eight states and the
District of Columbia have adopted the IAD. See National Center for Interstate Compacts,
Interstate Compacts – Agreement on Detainers, available at https://perma.cc/X9N5UMNK. The federal government itself became a party to the compact in 1970. Pub. L.
91-538, 84 Stat. 1397.
Maryland became a party to the compact in 1965. Chapter 627, §1, Laws of
Maryland 1965.
3.

The Interstate Transfer Process under the IAD

The IAD is organized as nine “Articles” designated by roman numerals – i.e.,
Article I, Article II, etc. – which, in Maryland, correspond to sections of the Correctional

3

Another proposed law dealt with the disposition of detainers arising within the
state where a prisoner was located and was called the Uniform Mandatory Disposition of
Detainers Act. Council of State Governments Report at 74-78.
4

In the Court of Special Appeals, the parties were asked to brief the question
whether the IAD, as a federal law, would preempt other state statutes such as CP §3-112
that might pertain to Mr. Aleman’s situation. 242 Md. App. 632, 644 n.9 (2019). Both
parties have also addressed preemption in their briefs to us. Ultimately, the intermediate
appellate court found it unnecessary to reach that issue to decide this case, as do we.

5
App. 7

Services Article of the Maryland Code.5 Cases in various jurisdictions construing the IAD
generally refer to the provisions of the IAD by their Article designations. Accordingly, we
shall use those designations in the text of this opinion and cross-reference the Maryland
Code analogs in footnotes, as appropriate.
For purposes of this case, the key provisions of the IAD can be summarized as
follows.
Underlying Policy
The first Article of the IAD sets forth the problem that the compact was intended to
address and the means of addressing that problem. Article I.6 It briefly refers to the fact
that unresolved detainers based on outstanding charges can “obstruct programs of prisoner
treatment and rehabilitation.” Id. Accordingly, the IAD is intended “to encourage the
expeditious and orderly” disposition of detainers based on untried charges. Id. To that
end, the IAD provides “cooperative procedures.” Id. The last Article of the IAD states
that it is to be “liberally construed so as to effectuate its purposes.” Article IX.7

5

When the General Assembly enacted the law by which the State joined the
compact, the IAD was codified in the Maryland Code as Article 27, §616A et seq. In 1999,
it was recodified as part of the then-new Correctional Services Article. Chapter 54, Laws
of Maryland 1999.
6

CS §8-403.

7

CS §8-411.

6
App. 8

Lodging the Detainer
The IAD applies when a state in which there are untried charges pending against an
individual imprisoned in another state lodges a detainer with the state in which the
individual is imprisoned. The IAD uses the phrase “receiving state” to refer to the
jurisdiction that has pending charges against the individual and that lodges a detainer. It
uses the phrase “sending state” to refer to the jurisdiction where the individual is already
incarcerated and the detainer is lodged. Article II(b), (c).8
Initiating a Transfer to the Receiving State
After a detainer is lodged, a transfer of the prisoner9 from the sending state to the
receiving state under the IAD can be initiated in two ways: (1) by the prisoner or (2) by
the state in which charges are pending – i.e., the receiving state.
First, Article III provides that a prisoner subject to a detainer may initiate a transfer.
The official in charge of the prisoner in the place of incarceration – i.e., the sending state
– must inform the prisoner of the source and contents of any detainer, as well as of the
prisoner’s right to request final disposition of the untried charges in the receiving state.
Article III(c).10 The prisoner may then request a final disposition of the pending charges.

8

CS §§8-404(b), (c).

9

The IAD uses the term “prisoner” to refer to the person who is the subject of a
detainer based on pending charges in one state while incarcerated in another state. For
clarity, we will generally use the same term.
10

CS §8-405(c).

7
App. 9

Article III(a)-(b).11 The prisoner’s request is “deemed to be a waiver of extradition” with
respect to proceedings on the pending charges in the receiving state. Article III(e).12 Such
a request also constitutes consent “to the production of the prisoner’s body in any court
where the prisoner’s presence may be required in order to effectuate the purposes of [the
IAD] and a further consent voluntarily to be returned to the original place of imprisonment
in accordance with the provisions of [the IAD].” Id. Finally, the request is deemed to be
a waiver of extradition for the prisoner’s later return to the receiving state to serve any
sentence imposed on those charges in that state after the prisoner completes the current
term of imprisonment in the sending state. Id.
Second, Article IV provides that, regardless of whether the prisoner requests final
disposition of the pending charges, the jurisdiction in which charges are pending may also
initiate a transfer. To do so, the receiving state may request “temporary custody or
availability” of the prisoner to stand trial. Article IV(a).13 The receiving state’s request
for transfer of the prisoner must be approved, recorded, and transmitted by the court having
jurisdiction over the pending charges in the receiving state. Id. In this situation, where the
prisoner has not initiated the transfer, the governor of the state in which the prisoner is
located may decline to allow the requesting state to have temporary custody of the prisoner.
Id. In addition, the prisoner has an opportunity to contest the transfer. Article V(d).

11

CS §§8-405(a)-(b).

12

CS §8-405(e).

13

CS §8-406(a).

8
App. 10

In either case, if the transfer proceeds, the sending state – the place of incarceration
– is to offer to deliver “temporary custody” of the prisoner to the receiving state for a
“speedy and efficient prosecution.” Articles V(a).14 And, in either case, the authorities in
the sending state are to provide a certificate stating the term of the prisoner’s incarceration,
the time already served, the time remaining on the term, the amount of good time earned,
when the prisoner is eligible for parole, and any parole-related decisions concerning the
prisoner. Articles III(a), IV(b).15
Custody of the Prisoner in the Receiving State
Among other things, Article V of the IAD establishes parameters for a prisoner’s
stay in the receiving state and eventual return to the sending state. Of particular relevance
to this appeal, Article V provides that the receiving state’s custody of the prisoner is
“temporary” and limited in nature – it “shall be only for the purpose of permitting
prosecution on the charge or charges contained in one or more untried indictments,
informations, or complaints that form the basis of the detainer or detainers or for
prosecution on any other charge or charges arising out of the same transaction.” Article
V(d).16 Moreover, Article V states that “[f]or all purposes other than that for which
temporary custody as provided in [the IAD] is exercised, the prisoner shall be deemed to

14

CS §8-407(a).

15

CS §§8-405(a), 8-406(b).

16

CS §8-407(d).

9
App. 11

remain in the custody of and subject to the jurisdiction of the sending state.” Article V(g).17
Finally, “[a]t the earliest practicable time consonant with the purposes of [the IAD], the
prisoner shall be returned to the sending state.” Article V(e).18 As is evident, Article V
establishes that the receiving state’s custody over a prisoner is temporary and extends only
to the prosecution of the pending charges; the sending state retains custody over the
prisoner for all other purposes.
Obligations of the Receiving State and Remedies for the Prisoner
Once the transfer process under the IAD has been set in motion, the IAD imposes
certain requirements on the receiving state and provides a remedy to the prisoner if those
requirements are not satisfied.
First, if the prisoner requests a transfer to the receiving state to dispose of charges
underlying a detainer, but the receiving state declines to accept temporary custody of the
prisoner for that purpose, the receiving state is to dismiss the charges with prejudice, and
the detainer ceases to have any force or effect. Article V(c).19
Second, once a prisoner is transferred to the receiving state, the IAD requires the
receiving state to dispose of any pending criminal charges before returning the prisoner to
the sending state. Articles III(d), IV(e).20 This requirement is often referred to as an “anti-

17

CS §8-407(g).

18

CS §8-407(e).

19

CS §8-407(c).

20

CS §§8-405(d), 8-406(e).

10
App. 12

shuttling” provision. If the receiving state violates an anti-shuttling provision and returns
the prisoner to the sending state without resolving the charges underlying the detainer, the
receiving state is to dismiss the charges with prejudice and the detainer ceases to have any
force or effect. Id.
Third, the IAD imposes speedy trial deadlines in the receiving state. If the prisoner
initiated the transfer, the receiving state must bring the prisoner to trial within 180 days of
receiving the prisoner’s request under the IAD. Article III(a).21 If the receiving state
initiated the transfer, the trial must begin within 120 days of the prisoner’s arrival in the
receiving state. Article IV(c).22 In either instance, the court presiding over the matter may
grant “any reasonable and necessary continuance” beyond the deadline. Articles III(a),
IV(c).23 Also, the duration and expiration of those periods are “tolled whenever and for as
long as the prisoner is unable to stand trial, as determined by the court having jurisdiction
of the matter.” Article VI(a).24 However, if the receiving state otherwise does not bring
the prisoner to trial on the charges underlying the detainer within the requisite time period,
the receiving state is to dismiss those charges with prejudice. Article V(c).25

21

CS §8-405(a).

22

CS §8-406(c).

23

CS §§8-405(a), 8-406(c).

24

CS §8-408(a).

25

CS §8-407(c).

11
App. 13

Applicability of the IAD to a Mentally Ill Prisoner
Article VI of the IAD consists of two provisions that limit the application and
remedies available under the IAD. As previously mentioned, the speedy trial requirements
that the IAD imposes in the receiving state are tolled “for as long as the prisoner is unable
to stand trial.” Article VI(a). In addition, “[n]o provision of [the IAD], and no remedy
made available by [the IAD], shall apply to any person who is adjudged to be mentally ill.”
Article VI(b).26 As will be seen, this case requires us to consider the scope of the latter
subsection.
IAD Forms
The National Association of Extradition Officials has developed forms that party
states may use to implement the provisions of the IAD. See National Association of
Extradition Officials, description of Extradition and Interstate Agreement on Detainers
Manual at https://perma.cc/ZRW3-TLYY.27 Following the pattern set by the IAD, these
forms are designated by Roman numerals. Pertinent to this case, Form II is used by a
prisoner to invoke the IAD to request final disposition of pending charges in another state.
That form recites the provisions of Article III that the request constitutes a waiver of
extradition to the receiving state and a consent to be returned to the place of imprisonment
after the charges in the receiving state are resolved.

26

CS §8-408(b).

27

Congress has authorized the United States Attorney General and the Mayor of the
District of Columbia to develop forms as well. 18 U.S.C. App. 2 §6.

12
App. 14

B.

Mental Status of a Defendant in a Criminal Case
The mental status of a defendant in a criminal case may become an issue in that case

primarily in two instances: (1) whether the defendant is incompetent to stand trial; and (2)
whether the defendant was not criminally responsible at the time of the crime. Both
concern the mental status of the defendant, but during different time periods, which may
or may not overlap.
1.

Incompetent to Stand Trial

Under Maryland law, a defendant is incompetent to stand trial if the defendant is
unable “to understand the nature or object of the proceeding” or “to assist in one’s defense.”
CP §3-101(f).28 If at any time before or during trial the court suspects that the defendant
is incompetent or if the defendant alleges incompetence, the court must determine whether
the defendant is competent to stand trial. CP §3-104(a). The court may reconsider the
issue of competence at any time before final judgment. CP §3-104(c). The statute provides
ultimately for the dismissal of the charges if the defendant remains incompetent to stand
trial for a specified period. CP §3-107. The prohibition against trying an incompetent
defendant reflects the due process right to a fair trial under the Fourteenth Amendment of
the United States Constitution. Drope v. Missouri, 420 U.S. 162, 171-72 (1975).

28

This standard has been part of State law since the General Assembly adopted it
by statute in 1967. Raithel v. State, 280 Md. 291, 297-98 (1977). Although this standard
was not applied in Maryland prior to the General Assembly’s action, it had been part of the
common law of many other states. See Note, Incompetency to Stand Trial, 81 Harv. L.
Rev. 454 (1967).

13
App. 15

2.

Not Criminally Responsible

A defendant in a criminal case “is not criminally responsible for criminal conduct
if, at the time of that conduct, the defendant, because of a mental disorder or mental
retardation, lacks substantial capacity to: (1) appreciate the criminality of that conduct; or
(2) conform that conduct to the requirements of the law.” CP §3-109(a).29 A defendant
who asserts that he or she lacked criminal responsibility at the time of the offense may
enter a plea of “not criminally responsible.” CP §3-110(a); Maryland Rule 4-242(a).
If a defendant enters a plea of not criminally responsible, the State retains the burden
of proving, beyond a reasonable doubt, that the defendant committed the criminal act. CP
§3-110(c). The defendant bears the burden of proving, by a preponderance of the evidence,
that he or she was not criminally responsible at the time of that act. CP §3-110(b)-(c). It
is not uncommon, as happened in this case, for the defendant to admit to having committed
the criminal act and for the trial to concern solely the issue of criminal responsibility.
Maryland Rule 4-314(a)(4).30
If the factfinder – either the jury or, in a bench trial, the judge – returns a verdict of
not criminally responsible, “the court shall order the defendant committed to the facility
that the Health Department designates for institutional inpatient care or treatment.” CP §3-

29

This standard was adopted by the General Assembly in 1967 based on a provision
of the Model Penal Code. See State v. Conn, 286 Md. 406, 417 (1979).
30

Alternatively, a defendant could enter a plea of not guilty and not criminally
responsible. In such cases, the trial may be bifurcated. Maryland Rule 4-314(a)(1)-(3),
(b).

14
App. 16

112(b).31 The Department of Health must “admit the defendant to the designated health
care facility as soon as possible, but not later than 10 business days” after receiving the
order of commitment. CP §3-112(e)(1). As an alternative to commitment, the defendant
may be released, with or without conditions, if certain criteria are met. CP §3-112(g). If
committed to a facility, the defendant may be released if he or she “would not be a danger,
as a result of mental disorder or mental retardation, to self or to the person or property of
others.”

CP §3-114(b).

The defendant may also be conditionally released after

commitment if it is possible to satisfy that standard with conditions imposed by the court.
CP §3-114(c). While on conditional release, the individual is still regarded as a “committed
person” under the statutory scheme and may be returned to the mental health facility if the
conditions are violated. CP §3-121; see also Simms v. Department of Health, 467 Md. 238
(2020).
3.

Comparison

As is evident, the determination whether a defendant is competent to stand trial is
distinct from the determination whether the defendant was criminally responsible at the
time of the alleged offense. For competency, the court must assess the defendant’s current
mental health status to determine whether the defendant is able to understand the

31

At the time of the Circuit Court proceedings in this case in June 2018, the statute
required the court to commit the defendant to the Health Department in somewhat different
language. The statute was amended during the 2018 session of the General Assembly,
effective October 1, 2018, to its current form. Chapters 188, 189, 702, 703, Laws of
Maryland 2018. The changes wrought by the 2018 amendment are not pertinent to the
issues in this case.

15
App. 17

proceedings and assist in the defense. For criminal responsibility, the court must assess
the defendant’s past mental health status at the time of the commission of the offense,
which may or may not be the same as the defendant’s mental health status at the time of
trial. See Jolley v. State, 282 Md. 353, 373 (1978). When a defendant enters a plea of not
criminally responsible, the court may order an evaluation of the defendant’s competence
to stand trial, presumably on the theory that whatever condition is the basis of that plea
may have persisted and may affect the defendant’s ability to assist in the defense. See CP
§3-111.32
In any event, a defendant may be found competent to stand trial at present, yet
deemed not criminally responsible for the past conduct at issue. Indeed, that is precisely
what happened in the case at hand.
B.

Facts and Legal Proceedings
The essential facts are undisputed and can be briefly summarized, along with the

procedural path of this case.
Murder Charges in Maryland
On March 17, 2016, Mr. Aleman fatally stabbed Victor Adolpho Serrano, his former
landlord, at Mr. Serrano’s home in Baltimore County. On March 18, 2016, an arrest
warrant was issued for Mr. Aleman based on a statement of charges filed in the District

32

CP § 3-111(a) provides that “[i]f a defendant has entered a plea of not criminally
responsible, the court may order the Health Department to examine the defendant to
determine whether the defendant was not criminally responsible under § 3-109 of this title
and whether the defendant is competent to stand trial.”

16
App. 18

Court charging him with first degree murder of Mr. Serrano. However, Mr. Aleman had
fled the State.
Conviction and Imprisonment in Ohio
Approximately two weeks later, Mr. Aleman was in Glendale, Ohio, where a police
officer came upon him walking along a highway. When the officer approached, Mr.
Aleman drew a knife and threatened the officer, causing the officer to shoot Mr. Aleman
in an attempt to disarm and apprehend him. Mr. Aleman later explained to police in Ohio
that “I don’t want to kill somebody else. And I wanted the officer to kill me.”
Mr. Aleman was tried in Ohio, where a jury found him guilty of felony assault. The
Ohio court sentenced him to 11 years in prison.
Mr. Aleman’s IAD Request and Return to Maryland
The Maryland arrest warrant was lodged as a detainer against Mr. Aleman in Ohio.
On September 26, 2016, while serving his sentence in Ohio, Mr. Aleman filed a request
under Article III of the IAD for final disposition of the outstanding murder charge in
Maryland. Mr. Aleman filed his request on IAD Form II, in which he acknowledged that
he waived extradition to Maryland for disposition of the pending charge and consented to
be returned to Ohio following resolution of those charges.
Maryland agreed to take temporary custody of Mr. Aleman under the IAD. He was
transferred from Ohio, the sending state, to Maryland, the receiving state, on November
17, 2016. On December 5, 2016, the grand jury in the Circuit Court for Baltimore County
returned an indictment that superseded the statement of charges and charged him with first

17
App. 19

degree murder, first degree assault, robbery with a deadly weapon, robbery, theft, and
carrying a dangerous weapon with intent to injure – all related to his attack on Mr. Serrano.
Trial in Maryland – Verdict of Not Criminally Responsible
In the Circuit Court, Mr. Aleman initially entered pleas of not guilty and not
criminally responsible with respect to the charges against him. The Circuit Court ordered,
pursuant to CP §3-111(a), an examination of Mr. Aleman with respect to his competency
to stand trial and criminal responsibility. After examining Mr. Aleman, the Department of
Health provided a report to the court on his mental status. Based on that report, the court
found him competent to stand trial.
The prosecution and defense agreed to bifurcate the issues of whether Mr. Aleman
had committed the acts alleged and whether he was criminally responsible for those acts.
On February 23, 2018, Mr. Aleman pled guilty to second degree murder of Mr. Serrano
under the first count of the indictment. (The State later nolle prossed the remaining
charges). The Circuit Court scheduled the trial on the issue of criminal responsibility for
a later date.33
Mr. Aleman ultimately elected to have the issue of criminal responsibility decided
by a jury. At the jury trial on May 29-31, 2018, the parties presented a stipulation of facts
about the underlying offense and a video recording of an encounter between Mr. Aleman
and the victim earlier on the day of the murder that had been captured by a surveillance

33

Mr. Aleman had waived the requirement under State law for speedy trial pursuant
to the State “Hicks rule.” See Tunnell v. State, 466 Md. 565 (2020).

18
App. 20

camera. The prosecution and the defense each presented the testimony of a forensic
psychiatrist. Both psychiatrists diagnosed Mr. Aleman as suffering from a schizo-affective
disorder, but reached divergent opinions on whether he was criminally responsible at the
time of the offense. The jury found by a preponderance of the evidence that Mr. Aleman
was not criminally responsible for the killing of Mr. Serrano. Immediately following the
jury verdict, the Circuit Court indicated that it would commit Mr. Aleman to the
Department of Health. However, upon being advised that Mr. Aleman had been brought
to Maryland under the IAD, the court expressed the view that he would have to be returned
to Ohio and remanded him to the county detention center.
On June 4, 2018, the Circuit Court entered an order committing Mr. Aleman to the
Department of Health pursuant to CP §3-112 with the date of transfer and place of
commitment “to be determined.” At the same time, the Circuit Court sent a letter to the
Secretary of Health, with copies to the attorneys involved in the case, as well as attorneys
representing the Maryland Department of Public Safety and Correctional Services and the
Maryland Department of Health, and an official of the Ohio Department of Rehabilitation
& Correction. That letter summarized the proceedings in the Circuit Court, noted that Mr.
Aleman had been brought to Maryland while serving a sentence in Ohio, and provided
copies of the pertinent IAD forms concerning Mr. Aleman’s temporary custody in
Maryland.34

34

There is no indication in the record whether the Secretary responded to this letter.
In his brief, Mr. Aleman states that the Ohio official shown as copied on the letter to the
19
App. 21

Mr. Aleman’s Habeas Corpus Petitions and Appeals
Two days later, on June 6, 2018, Mr. Aleman filed a Petition for Writ of Habeas
Corpus in the Circuit Court for Baltimore County in which he challenged his continued
confinement in the county detention center and asked to be committed to the Department
of Health. He argued that the Maryland jury’s determination that he was not criminally
responsible at the time of the March 2016 offense placed him outside the purview of the
IAD, pursuant to Article VI(b) of the IAD, and, accordingly, that he should not be returned
to Ohio’s custody. The State opposed the petition, arguing that the IAD required his return
to Ohio.
The Circuit Court held a hearing on June 13 and, concluding that the IAD required
Mr. Aleman’s return to Ohio, denied the relief sought in his habeas corpus petition. Mr.
Aleman immediately noted an appeal and asked the court to stay his return to Ohio pending
his appeal. The Circuit Court granted that request, staying its order committing Mr.
Aleman to the Department of Health, as well as the denial of his habeas corpus petition and
his return to Ohio,35 with the result that Mr. Aleman remained in the county detention

Secretary did not take action in response to the letter. In any event, the IAD does not
require that a sending state request return of a prisoner from the receiving state.
35

The State sought reconsideration of the order staying his return to Ohio on the
ground that the denial of the habeas corpus petition was not appealable. Mr. Aleman
opposed that motion on the basis that, while an order denying habeas corpus relief is
ordinarily not appealable, there is an exception when the writ is sought “for a purpose other
than to challenge the legality of a conviction or sentence” – in this case, commitment to
the Department of Health rather than detention for return to Ohio. CP §7-107. The Circuit
Court denied the motion to reconsider and the Court of Special Appeals agreed with Mr.
20
App. 22

center pending the disposition of his appeal.36
Shortly thereafter, on June 18, 2018, Mr. Aleman filed a second petition for habeas
corpus, seeking to compel the State to transfer him to the Department of Health pending
his appeal of the denial of his first habeas corpus petition. A hearing was held on July 20,
2018, before a different judge of the Circuit Court, who denied the second petition. Mr.
Aleman again noted an appeal.
The Court of Special Appeals consolidated Mr. Aleman’s two appeals and affirmed
the judgment of the Circuit Court.37 242 Md. App. 632 (2019). The intermediate appellate
court held that, under the IAD, Maryland acquired temporary custody over Mr. Aleman
only to prosecute the charges on which the detainer was based and therefore lacked custody
over Mr. Aleman to commit him to the Department of Health before returning him to Ohio
under the IAD. The Court of Special Appeals held that Article VI(b) of the IAD did not
require otherwise.
We granted Mr. Aleman’s petition for a writ of certiorari.

Aleman on the issue of appealability. 242 Md. App. at 636 n.2. Before us, the State does
not contest the appealability of the order.
36

We note that, under Article V(f) of the IAD (CS §8-407(f)), Mr. Aleman is to
receive credit on his Ohio sentence for the time served in temporary custody in Maryland.
Whether he will receive good time credits as well is to be determined under Ohio law.
37

The Court of Special Appeals ultimately held that Mr. Aleman’s appeal of the
denial of his second habeas corpus petition was moot as a result of its decision affirming
the denial of his first petition. 242 Md. App. at 636 n.3.

21
App. 23

II
Discussion
There appears to be no dispute that, if Mr. Aleman had been either acquitted or
convicted of the Maryland charges, he would be promptly returned to Ohio under the IAD.
The question in this case is whether a verdict of not criminally responsible requires a
different result.
Mr. Aleman offers two arguments as to why he should remain in Maryland
following the not criminally responsible verdict. First, he suggests the IAD contemplates
that Maryland’s “temporary custody” of him pursuant to Articles III and V to resolve the
charges underlying the detainer against him would also include a commitment to the
Department of Health under CP §3-112. Alternatively, he argues that the not criminally
responsible verdict took him outside the purview of the IAD altogether – i.e., that, under
Article VI(b), the IAD effectively switches off once such a verdict is returned.
A.

Standards of Appellate Review and Statutory Construction
The consequences of a not criminally responsible verdict when the State has

temporary custody of the defendant under the IAD is a legal question. As with any legal
question, we owe no deference to the decisions of the Circuit Court or of the Court of
Special Appeals. However, that does not mean that we need to re-invent the wheel when,
as in this case, the intermediate appellate court has cogently analyzed an issue.
The question in this case requires interpretation of an interstate compact and, to
some extent, a State statute. The goal of statutory interpretation, as this Court has
repeatedly stated, is to discern and carry out the intent of the Legislature. We begin with

22
App. 24

an examination of the text of a statute within the context of the statutory scheme to which
it belongs, then typically review the legislative history to confirm conclusions or resolve
ambiguities, and finally may consider the consequences of alternative interpretations of the
statute. Blue v. Prince George’s County, 434 Md. 681, 689 (2013) (citing Town of Oxford
v. Koste, 204 Md. App. 578, 585-86 (2012), aff’d, 431 Md. 14 (2013)). In construing
statutes, we presume that the Legislature intended for its enactments to work together as a
harmonious and consistent body of law. Lockshin v. Semsker, 412 Md. 257, 276 (2010).
Prior case law construing the statute in question or similar statutes in other
jurisdictions is often informative. State v. Thomas, 465 Md. 288, 301 (2019). That is
particularly true in this case. As noted above, as a congressionally-sanctioned interstate
compact, the IAD is a federal law subject to construction by the federal courts as well as a
state law of the other states that have joined the compact.
B.

Whether Temporary Custody under the IAD May Include Commitment to the
Department of Health
Mr. Aleman argues that commitment to a mental health facility in Maryland under

CP §3-112 is not precluded by the provisions of the IAD that require his return to the
sending state – Ohio. But, as the Court of Special Appeals aptly observed, Maryland is
able to commit a defendant under CP §3-112 only if the State has the requisite jurisdiction
over that defendant to do so. 242 Md. App. at 644. The question then is whether temporary
custody afforded by the IAD to a receiving state provides such jurisdiction.

23
App. 25

Statutory Text
Maryland’s custody of Mr. Aleman is based on its status as a receiving state under
the IAD as a result of his invocation of the IAD. As previously outlined, in making a
request to resolve an out-of-state detainer, a prisoner is deemed under Article III to waive
extradition to the state that placed the detainer and, once the detainer is resolved, to consent
to be returned to the place of incarceration.38 The IAD specifies that a receiving state takes
“temporary custody” of the prisoner – a phrase that appears 13 times in the compact.
The custody of the prisoner in the receiving state is not only temporary, but is limited
in nature. That custody is “only for the purpose of permitting prosecution” of untried
charges. Article V(d).39 For all other purposes, “the prisoner shall be deemed to remain in
the custody of and subject to the jurisdiction of the sending state” – in Mr. Aleman’s case,
Ohio. Article V(g).40 Moreover, the receiving state is to return the prisoner to the sending
state “[a]t the earliest practicable time consonant with the purposes of [the IAD]” – i.e., to
resolve pending detainers. Article V(e).41 As is evident, the plain language of the IAD
leaves no doubt that the receiving state has custody of a prisoner only for the purpose of
resolving pending charges.

38

The IAD Form II that Mr. Aleman executed to trigger his transfer to Maryland
recited these provisions of Article III of the IAD in some detail.
39

CS §8-407(d).

40

CS §8-407(g).

41

CS §8-407(e).

24
App. 26

Legislative History
The history and purpose of the IAD confirm what the text plainly says about the
nature of a receiving state’s custody of a prisoner. As noted earlier, the drafters of the IAD
designed the compact according to certain guiding principles. In addition to requiring
prompt action by law enforcement and correctional officials to resolve detainers, those
principles stressed the temporary nature of the receiving state’s custody of the prisoner:
“There should be assurance that any prisoner released to stand trial in another jurisdiction
will be returned to the institution from which he was released” and “it is essential that the
institution [in the sending state] be assured of [the prisoner’s] return after the trial has been
completed.” Council of State Governments Report at 75. From its inception, the IAD was
intended to give states with pending charges against prisoners in other states only
temporary custody over those prisoners for the limited purpose of resolving the pending
charges.
When the IAD was proposed for adoption by the Maryland General Assembly in
the early 1960s, the Legislative Council provided the following description of the operation
of the compact when it recommended its adoption:
[The IAD] provides a means whereby [a prisoner] can test the
substantiality of detainers placed against him and can secure final judgment
on indictments outstanding against him in party states. The prisoner will
benefit from having a greater degree of certainty concerning his future than
he now has. It will be of benefit to Maryland correctional authorities in that
they will be able to provide more suitable programs of treatment for the
prisoner while he is incarcerated.
Legislative Council of Maryland, Report to the General Assembly of 1964, p. 36.

25
App. 27

The history of the federal legislation adopting the compact several years later
reflects the same understanding. In discussing how the IAD would operate, the floor leader
of the bill in the House of Representatives explained that “[u]pon completion of the trial
the prisoner would be returned to the institution in which he was imprisoned. If convicted,
any sentence imposed would be served in the second jurisdiction following completion of
the original sentence.” 116 Cong. Rec. 13999 (1970) (remarks of Rep. Kastenmeier). The
same understanding is reflected in a contemporaneous congressional report on the bill
describing a twofold purpose of the IAD – (1) to provide prisoners with a way to promptly
“test of the substantiality of detainers placed … by other jurisdictions;” and (2) to provide
prosecuting authorities a way to bring a defendant imprisoned in another jurisdiction to
trial before the case had grown stale. S. Rep. No. 91-1356 (1970). Both purposes are
satisfied once the receiving state’s case has been tested at trial, as there are no longer
unsubstantiated charges pending against the prisoner, and the receiving state no longer risks
evidence becoming stale.
Mr. Aleman contends that “temporary custody” under the IAD should be given a
broader interpretation based on the expressed concern of the drafters of the IAD about the
adverse effect of unresolved detainers on the rehabilitation of a prisoner in the place of
incarceration. Mr. Aleman argues that, because Article V(e) of the IAD states that the
receiving state is to return a prisoner to the sending state at “the earliest practicable time
consonant with the purposes of this Agreement,” Maryland may refrain from returning him
to Ohio and instead commit him to the Department of Health in order to further his
rehabilitation. However, as the Court of Special Appeals observed, the IAD is not designed

26
App. 28

to promote prisoner rehabilitation in a general sense, but rather is intended to minimize the
negative impact of unresolved detainers on a prisoner’s rehabilitation while incarcerated in
the sending state. See 242 Md. App. at 652-53. Any impediment that the unresolved
Maryland detainer might have posed to Mr. Aleman’s participation in a rehabilitation
program in Ohio has now been resolved, in accordance with the design of the IAD.
Testing Alternative Constructions
Mr. Aleman’s alternative interpretation of the IAD is that it allows commitment to
the Department of Health as “intrinsic” to the disposition of the charges against him in
Maryland. In his view, Maryland’s temporary custody would extend to his indefinite
commitment to a mental health facility under CP §3-112.
But a commitment under CP §3-112 appears to be no more intrinsic to the trial of
the charges in the receiving state than other post-trial dispositions.42 If the prisoner is

42

Mr. Aleman offers a “plain meaning” argument based on the use of the word
“shall” in CP §3-112 (“…the court shall order the defendant committed…”). He asserts
that use of that verb means that the Circuit Court was required to commit him to the
Department of Health and had no discretion to do otherwise. There are at least two
problems with this argument. First, the IAD also uses the verb “shall” in describing the
receiving state’s obligation to return a prisoner to the sending state after charges are
resolved. Article V(e). Second, many Maryland statutes concerning sentencing also use
the verb “shall” to describe the imposition of sentence. See, e.g., Maryland Code, Criminal
Law Article, §2-201(b) (defendant convicted of murder in first degree “shall be sentenced
to” imprisonment for life); §4-203(e)(1)(ii) (defendant convicted of firearms offense on
public school property “shall be sentenced to imprisonment for not less than 90 days”); §5612(c) (defendant convicted as volume dealer of certain illegal drugs “shall be sentenced
to imprisonment” for at least five years). However, there is no dispute that, if Mr. Aleman
had been convicted and received a sentence of imprisonment in Maryland, he would be
returned to Ohio before commencing his Maryland sentence. CP §3-112 and the IAD
cannot be harmonized by arbitrarily according precedence to the use of “shall” in one
statute rather than the other.

27
App. 29

acquitted of charges in the receiving state, the prisoner is not released in that state, but
rather returned to the sending state to complete the existing sentence there. If the prisoner
is convicted and sentenced in the receiving state, that sentence must await completion of
the prisoner’s existing sentence in the sending state. See State of N.Y. by Coughlin v. Poe,
835 F. Supp. 585, 590-91 (E.D. Ok. 1993) (holding that the receiving state was obligated
under the IAD to return the prisoner to the sending state to serve the remainder of his
sentence there before the receiving state could carry out the death sentence it had imposed).
It follows that, if a prisoner is found guilty but not criminally responsible in the receiving
state, any commitment for treatment must likewise await completion of the original
sentence in the sending state.43
A contrary interpretation would have anomalous results. For example, under
Maryland law, a defendant found to be not criminally responsible may be released with
conditions if the court determines that he or she is not a danger to self or to the person or
property of others. See CP §§3-112(g), 3-114. A person on conditional release is still
considered a “committed person.” See CP §3-121. Under Mr. Aleman’s view of temporary
custody under the IAD, a defendant found not criminally responsible like Mr. Aleman

43

Mr. Aleman argues that, under Maryland Rule 4-314, the guilt and criminal
responsibility phases of a bifurcated trial are “a single continuous trial in two stages.”
While that may be a correct description of the operation of the rule, it is without
consequence here. The jury’s determination that a defendant is not criminally responsible
is separate from the court’s decision to commit or to release the defendant, with or without
conditions, as a result of that verdict.

28
App. 30

could be committed and then released into the community in Maryland on conditions for
an indeterminate time without being returned to Ohio to complete his sentence.44
Summary
Ohio had complete and exclusive custody of Mr. Aleman before Mr. Aleman
invoked the IAD to resolve his Maryland detainer. Under the plain language of the IAD,
and consistent with the purpose of the compact as reflected in its legislative history,
Maryland obtained temporary custody of Mr. Aleman for the sole purpose of resolving the
pending murder charge underlying the detainer – in response to his request that it do so.
Maryland was obligated to return Mr. Aleman to Ohio once that charge was resolved –
whatever that resolution happened to be. Accordingly, Maryland does not have the
requisite jurisdiction over Mr. Aleman to commit him to the Department of Health under
CP §3-112 in lieu of returning him to Ohio.
C.

Whether the Not Criminally Responsible Verdict Triggered Article VI(b)
Mr. Aleman’s second argument does not depend on harmonizing CP §3-112 with

the temporary custody provisions of the IAD. Rather, he contends that, once the jury

44

Perhaps in light of this potential anomaly, counsel for Mr. Aleman stated at oral
argument that a defendant who is found not criminally responsible and who is conditionally
released would have to be returned to the sending state. However, this appears to be at
odds with the argument that commitment for treatment falls within the temporary custody
that a receiving state has under the IAD. An individual on conditional release not only
remains a “committed person” in that status, but is also subject to confinement in a mental
facility if he or she violates a condition of the conditional release. CP §3-121. Mr.
Aleman’s conception of temporary custody, which apparently would involve confinement
in Ohio at the same time as commitment under Maryland law, thus raises the possibility
that the sending and receiving states would simultaneously exercise competing forms of
custody over the individual – a situation the IAD was clearly designed to avoid.

29
App. 31

returned a not criminally responsible verdict, the IAD ceased to apply to him pursuant to
Article VI(b) of the compact. Under this view, Article VI(b) creates a mental health
exception to the IAD and a not criminally responsible verdict at the conclusion of a trial in
the receiving state would preclude the prisoner’s return to the sending state. Therefore,
Mr. Aleman argues, he should not be returned to Ohio, but rather retained in Maryland and
committed to the Department of Health under CP §3-112.45
Text of Article VI(b)
Article VI(b) of the IAD states, in its entirety, that “[n]o provision of this
Agreement, and no remedy made available by this Agreement, shall apply to any person
who is adjudged to be mentally ill.” The compact does not define what is meant by a
“person who is adjudged to be mentally ill.” However, as the Court of Special Appeals
noted, tense matters. See 242 Md. App. at 647-48. This provision uses the present tense –
“any person who is adjudged to be mentally ill” – as opposed to the present perfect tense –
“any person who is adjudged to be or to have been mentally ill.” In our view, the text of
Article VI(b) indicates that the IAD and its remedies do not apply when a prisoner currently
suffers from a mental illness.
An example of an adjudication of current mental illness that would come within
Article VI(b) is when the prisoner is found to be incompetent to stand trial. In assessing

45

It is not at all clear that, if the IAD were to switch off as Mr. Aleman argues it
should, he would be retained in Maryland. Maryland has temporary custody of Mr. Aleman
only by virtue of the IAD and a reasonable argument could be made that, once the IAD
ceases to operate, full custody of Mr. Aleman necessarily reverts to Ohio – the State that,
but for the IAD, would have custody of him.

30
App. 32

competency, a court considers a defendant’s current mental state – whether he or she is
able to understand the proceedings and assist in his or her own defense. By contrast, an
adjudication that one was not criminally responsible due to mental illness at the time of the
crime in question – necessarily a time in the past – does not alone suffice to satisfy this
provision.
As this case illustrates, a defendant may be currently competent to stand trial, yet
found not responsible for past criminal conduct because of a mental disorder at the time of
the offense. There may be other bases for finding that a prisoner is currently mentally ill
within the meaning of Article VI(b), but a not criminally responsible verdict by itself does
not suffice, because it does not involve an adjudication of present mental illness.
The reference to “remedies” in Article VI(b) also evidences the provision’s concern
with current mental illness. As outlined above, the IAD provides a prisoner with the
remedy of dismissal with prejudice of charges underlying a detainer, thereby negating the
detainer, in three circumstances: (1) when the receiving state declines to accept temporary
custody of a prisoner who invokes the IAD; (2) when the receiving state violates the IAD’s
anti-shuttling provisions by returning the prisoner to the sending state without resolving
the charges underlying a detainer; and (3) when the receiving state fails to bring the
prisoner to trial within the period specified by the IAD’s speedy trial requirements.46

46

Of course, none of these remedies would apply at this stage of Mr. Aleman’s case:
Maryland accepted custody of Mr. Aleman after he invoked the IAD, the charges
underlying the Maryland detainer have been resolved before his return to Ohio, and there
is no contention that the IAD’s speedy trial requirements were violated.

31
App. 33

Article VI(b) recognizes that it would be futile, or an injustice, to apply these
remedies in the case of a prisoner who is currently incompetent to stand trial. A few
hypothetical examples illustrate this point. Imagine a prisoner in Ohio, who is determined
to be currently incompetent, for whom there is a detainer based on pending Maryland
charges. Suppose further that the prisoner nevertheless executes an IAD Form II requesting
transfer to Maryland under Article III of the IAD to dispose of the charges underlying the
detainer. It would be futile to transfer to Maryland a prisoner who is incompetent to stand
trial and Article VI(b) makes clear that the Maryland charges would not have to be
dismissed if Maryland declined to accept that transfer. If a prisoner were transferred to
Maryland, determined to be incompetent to stand trial on arrival, and Maryland returned
the prisoner to Ohio without resolving the charges, Article VI(b) would allow that return
without dismissal of those charges for violation of the anti-shuttling provision. If a prisoner
was transferred to Maryland under the IAD and found incompetent, but it appeared that
competency might soon be restored and a trial could go forward although after the
expiration of the IAD speedy trial limit, Article VI(b) would allow that to happen without
dismissal of the charges under the IAD’s speedy trial provisions.
Mr. Aleman argues that a not criminally responsible verdict suffices to establish a
current mental illness because it creates an inference that a defendant remains mentally ill
during and after that prosecution. He relies on Jones v. United States, 463 U.S. 354 (1983),
in which the Supreme Court held that a statute that required commitment to a mental
hospital of a defendant following a verdict of not guilty by reason of insanity did not violate
the constitutional guarantees of due process or equal protection. In reaching that holding,

32
App. 34

the Court reasoned that the finding beyond a reasonable doubt that a defendant had
committed the criminal act indicated that the defendant was dangerous and that the
legislature could reasonably determine that the insanity verdict by a lesser standard of proof
supported an inference of continuing mental illness. The Court acknowledged that the
strength of an inference of continuing mental illness would vary from case to case. In any
event, we agree with the Court of Special Appeals that Article VI(b) “is triggered by an
adjudication of an actual present mental illness, not an adjudication that at best creates an
inference of present mental illness.” 242 Md. App. at 650-51. This inference, coupled
with the determination of dangerousness, may be sufficient to support a commitment of a
defendant like Mr. Aleman, but it does not take him – and every other defendant who is
found not criminally responsible – outside the IAD.47
Statutory Context
Article VI(b) should, of course, also be read in the context in which it appears in the
compact. Perhaps most pertinent, there is another subsection in Article VI. Subsection (a)
states, in its entirety, that “[i]n determining the duration and expiration dates of the time
periods provided [in Articles III and IV of the IAD], the running of these time periods shall
be tolled whenever and for as long as the prisoner is unable to stand trial, as determined by

47

Again, we note that Mr. Aleman’s argument raises the prospect that a defendant
in such a case might ultimately be determined not to be dangerous – a necessary
prerequisite for commitment under both Jones and CP §3-112 – but that the inference of
continuing mental illness would keep him outside the IAD. In such circumstances, Mr.
Aleman would be released in Maryland without commitment and his return to Ohio would
be precluded by Article VI(b). We cannot accord the compact such an illogical reading.
See footnote 44 above.

33
App. 35

the court having jurisdiction of the matter.” Article VI(a).48 Subsection (a) thus tolls the
IAD’s speedy trial requirements when a prisoner is unable to stand trial. Subsection (b)
speaks to a similar concern for a situation where the IAD’s mechanisms and remedies for
resolving outstanding detainers would be frustrated because the prisoner is currently
mentally ill – for example, incompetent to stand trial to resolve the charges underlying the
detainer.
In addition to being read as a cohesive whole, Article VI must be harmonized with
the overall design of the compact. The IAD establishes a mechanism by which a state with
charges pending against a prisoner in another state obtains that prisoner to resolve the open
charges, either at the request of the prisoner or of the receiving state. As established in the
previous section of this opinion, the text of the IAD and its legislative history make clear
that a receiving state’s custody over a prisoner pursuant to the IAD extends only to the
resolution of pending charges in the receiving state. Nothing in Article VI(b) or elsewhere
in the IAD suggests that an adjudication of a prisoner’s past mental illness halts the
operation of the IAD and strands the prisoner in the receiving state.
Legislative History of Article VI(b)
Most of the legislative history of the IAD speaks only cryptically with respect to
Article VI(b), but the Senate Judiciary Committee Report issued in conjunction with the
federal government’s adoption of the IAD provides some evidence of the drafters’ intent.
S. Rep. No. 91-1356 (1970). That report outlined the purpose of the compact, its operation,

48

CS §8-408(a).

34
App. 36

and the allocation of costs of its operation. After noting that the IAD provided a prisoner
with “a procedure for bringing about a prompt test of the substantiality of detainers placed
against him by other jurisdictions,” the report explained why a prosecuting jurisdiction
might choose to invoke the compact – an option that was qualified in two respects, one of
which related to a prisoner’s mental illness. The report stated: “[t]he Agreement also
provides a method whereby prosecuting authorities may secure prisoners serving sentences
in other jurisdictions for trial before the expiration of their sentences and before the passage
of time has dulled the memory or made witnesses unavailable. However, a governor’s
right to refuse to make a prisoner available is preserved and the Agreement does not apply
to persons adjudged to be mentally ill.” Id. As is evident, the Judiciary Committee referred
to Article VI(b) as one of two exceptions to a receiving state’s ability to obtain a prisoner
for trial – the other exception being if the sending state’s governor denies the receiving
state’s request. That understanding is consistent with the interpretation of the language of
Article VI(b) articulated above – i.e., that it was intended to avoid sending a prisoner who
is mentally ill to the receiving state to no purpose, as a trial would not be able to take place.
Interpretation of Article VI(b) in Other Jurisdictions
There is little case law construing Article VI(b). In the few cases that have
considered the application of Article VI(b), the courts have viewed the provision as relating
to the current mental condition of a prisoner at the time an initial transfer is requested under
the IAD. In any event, no case from any jurisdiction has interpreted Article VI(b) to block
the return of a prisoner to the sending state because the prisoner was found not criminally
responsible for a past offense in the receiving state.

35
App. 37

For example, in State v. Beauchene, 541 A.2d 914 (Me. 1988), the defendant was
found not guilty by reason of mental disease or defect on a murder charge in Maine and
committed there for mental health treatment. Eight years later, however, he escaped from
the mental health facility in Maine and fled to New York. While in New York, he
committed crimes for which he was convicted and incarcerated in New York. Maine
requested temporary custody under the IAD to resolve the escape charge, and the defendant
was transferred from New York to Maine. After his return to Maine, the defendant was
convicted of the escape charge. The defendant appealed that conviction, contending,
among other things, that his previous commitment for mental health treatment in Maine
triggered Article VI(b) and rendered him ineligible for the transfer from New York to
Maine under the IAD. The Supreme Court of Maine rejected this argument, holding that
the “purpose of Article VI(B) ... is clearly to prevent one state from gaining custody of an
individual in another state who at that time is mentally ill and therefore unable to defend
against the custody change effectively.” Beauchene, 541 A.2d at 917 (emphasis added).
Because the defendant had not been adjudged mentally ill in New York at the time when
Maine sought custody of him to resolve the detainer based on the escape charge, Article
VI(b) was not triggered. Id. at 917-18.
In State v. King, 733 P.2d 472 (Or. 1987), the defendant, who was imprisoned in
Washington and subject to an Oregon detainer, was transferred from Washington to Oregon
pursuant to the IAD. In Oregon, he was brought to trial and convicted of the charges
underlying the Oregon detainer. On appeal, he raised several issues related to his transfer
under the IAD. Among other things, he asserted that he should have been returned to

36
App. 38

Washington for a determination of his mental status for purposes of Article VI(b). The
intermediate appellate court in Oregon rejected that argument, noting that he had been
found competent to stand trial in Oregon and that, in any event, the exception in Article
VI(b) applies only to prisoners present in the sending state prior to transfer. King, 733 P.2d
at 477-78.49
Summary
The plain language of Article VI(b), read in context and in light of the IAD’s
legislative history, provides that the IAD and its remedies do not apply when a prisoner
suffers from a current mental illness that would interfere with the IAD’s purpose of
resolving the charges underlying an outstanding detainer. A not criminally responsible
verdict in the receiving state concerning the defendant’s mental status at the time of a past
offense does not by itself trigger Article VI(b). It is apparent that Article VI(b) functions
as a safeguard against subjecting a prisoner who is presently mentally ill to unnecessary
transfers between jurisdictions that would not resolve charges underlying a detainer.
In this case, the Circuit Court explicitly found Mr. Aleman competent to stand trial
(and implicitly did so when it accepted his guilty plea and reviewed with him his decision
not to testify at trial). As best we can tell from the record of this case, he has never

49

A New Jersey regulation implementing the IAD in that state reflects a similar
interpretation. See New Jersey Administrative Code 10A:10-4.3. That regulation
establishes four criteria to be satisfied in order for a prisoner or a prosecuting authority to
initiate a transfer under the IAD. One of those criteria is that the “inmate against whom
the detainer has been filed is not adjudged to be mentally ill.” The regulation relates Article
VI(b) to the initial transfer to the receiving state under the IAD – not the return to the
sending state following resolution of a detainer.

37
App. 39

contended otherwise. The jury’s verdict that Mr. Aleman was not criminally responsible
concerned his mental state at the time he committed the murder of Mr. Serrano in 2016,
and not his mental state several years later when it was time to return him to the sending
state under the IAD. Article VI(b) does not prevent his return to Ohio.
III
Conclusion
For the reasons set forth above, we hold:
(1) The IAD gives a receiving state limited temporary custody of a prisoner for the
sole purpose of resolving charges underlying a detainer. Accordingly, Maryland lacks the
requisite jurisdiction over Mr. Aleman to commit him to the Department of Health under
CP §3-112.
(2) A verdict of not criminally responsible in a receiving state does not by itself
render the IAD inapplicable to a prisoner under Article VI(b). Because the charges
underlying the Maryland detainer pertaining to Mr. Aleman have now been resolved, the
IAD requires his return to Ohio to serve the remainder of his sentence there.
JUDGMENT OF THE COURT OF SPECIAL
APPEALS AFFIRMED. COSTS TO BE PAID BY
THE PETITIONER.

38
App. 40

Circuit Court for Baltimore County
Case No. 03-K-16-006061
Case No. 03-C-18-006040
Argued: March 10, 2020

IN THE COURT OF APPEALS
OF MARYLAND
No. 60
September Term, 2019
______________________________________
PABLO JAVIER ALEMAN
v.
STATE OF MARYLAND
______________________________________
Barbera, C.J.,
McDonald,
Watts,
Hotten,
Getty,
Booth,
Biran,
JJ.
______________________________________
Dissenting Opinion by Getty, J.,
which Watts, J., joins.
______________________________________
Filed: June 30, 2020

App. 41

Respectfully, I dissent.
The Majority’s narrow reading of Article VI(b) does not comport with this Court’s
present—and ever-changing—understanding of the effects of mental illness in individuals
or the intent of the General Assembly in enacting the IAD and CP § 3-112. A not
criminally responsible verdict necessarily means that Mr. Aleman is a “person who is
adjudged to be mentally ill.” CS § 8-408(b). Therefore, in my view, the IAD must be
tolled and Mr. Aleman committed to an MDH facility for treatment, not returned to Ohio.
A.

To Be, Or To Have Been, That Is Not the Question.
The Majority’s analysis of Article VI(b) hinges predominantly on the verb tense

used therein. In essence, the Majority contends that the IAD drafters’ use of the present
tense, as opposed to the present perfect tense, requires an adjudication of “current mental
illness” for the IAD and its remedies not to apply. See Majority Slip Op. at 30–33.
However, “statutes are generally not to be construed by strict and critical adherence to
technical grammatical rules.” 73 Am. Jur. 2d Statutes § 131. Resorting to statutory
microanalysis, the Majority unduly concentrates on verb tense as a restraint on the broad
application of remedies and treatments reserved for mentally ill individuals. The result
constrains the designation of a mental illness to a fixed point in time—the commission of
a criminal act—in disregard for the lodestar of statutory interpretation: “to ascertain and
effectuate the real and actual intent of the Legislature.” Lockshin v. Semsker, 412 Md. 257,
274 (2010). Instead, in my view, the Court should not cast aside the clear intention of the
General Assembly for sheer grammaticality. This rings especially true where a statute
“shall be liberally construed so as to effectuate its purposes.” CS § 8-411.

App. 42

The General Assembly enacted the IAD to facilitate “the expeditious and orderly
disposition” of untried charges of persons in other jurisdictions because such charges
“obstruct programs of prisoner treatment and rehabilitation.” CS § 8-403; see also State v.
Pair, 416 Md. 157, 162 (2010) (“In short, the purpose of the IAD is to facilitate speedy
disposition of charges underlying detainers.”). Article V of the IAD details the temporary
custody arrangement between the sending and receiving states. CS § 8-407. Tellingly,
CS § 8-407(e) mandates the return of a prisoner to the sending state, “[a]t the earliest
practicable time consonant with the purposes of” the IAD—i.e., the expeditious disposition
of untried charges to advance prisoner treatment and rehabilitation.

CS § 8-407(e)

(emphasis added). And, of import here, CS § 8-408(b) precludes application of the IAD
and its remedies “to any person who is adjudged to be mentally ill.”

Maryland’s

commitment statute requires that a defendant deemed not criminally responsible be
committed to an MDH facility for treatment. See CP § 3-112 (“[A]fter a verdict of not
criminally responsible, the court shall order the defendant committed to the facility that the
Health Department designates for institutional inpatient care or treatment.” (emphasis
added)).
Accordingly, CS § 8-408 (concerning a person adjudged to be mentally ill) and
CP § 3-112 (concerning the effects of a not criminally responsible verdict) embrace a
similar topic: the proper treatment of individuals with mental illness. In cases such as
these,
[i]t is well settled in this State that when two acts of the General Assembly
covering similar subject matter make no reference to each other, if it is at all
feasible, they will be construed so as to give as full an effect to each other as
2
App. 43

possible. In order for one statute to alter or limit another, the intention of the
Legislature to do so must be clear and manifest; otherwise, the requirements
of one will be construed as embodying the provisions of the other.
Mayor & City Council of Balt. v. Clerk of Superior Court, 270 Md. 316, 319 (1973)
(citation omitted). Here, the General Assembly gave no clear expression of intent to render
CP § 3-112 inapplicable when a defendant is present in Maryland because of the IAD.
Instead, the express terms of CS § 8-408(b) suspend the IAD when an individual is
“adjudged to be mentally ill.”

Read together, these statutory provisions require an

individual deemed not criminally responsible be committed to an MDH facility for
treatment—and the IAD suspended—until the individual is adequately rehabilitated and fit
for return to the sending state. This result comports with our developing societal and
scientific understanding of mental illness.
B.

Mental Illness as a Continuing Ailment.
In Jones v. United States, the Supreme Court determined that a not guilty by reason

of insanity verdict provided a satisfactory foundation for an individual’s commitment. 463
U.S. 354, 366 (1983). An “insanity acquittal,” the Court reasoned, “supports an inference
of continuing mental illness.” Id. “It comports with common sense to conclude that
someone whose mental illness was sufficient to lead him to commit a criminal act is likely
to remain ill and in need of treatment.” Id. Jones stands for the unremarkable proposition
that an individual found not criminally responsible has a continuing mental illness;
ostensibly, this means from the time of the not criminally responsible finding to the present.
Indeed, this Court recently reaffirmed the notion that an individual “convicted of a
crime yet found not criminally responsible for its commission is presumed dangerous.”
3
App. 44

Simms v. Dep’t of Health, 467 Md. 238, 255 (2020); see Bergstein v. State, 322 Md. 506,
519 (1991) (“The finding [that a person is not criminally responsible] presupposes that he
committed an illegal act.

Inherent in this inference is the indicia of continuing

dangerousness.” (alteration in original)); Jones, 463 U.S. at 364 (“The fact that a person
has been found, beyond a reasonable doubt, to have committed a criminal act certainly
indicates dangerousness.”).
It follows, then, that Mr. Aleman is “adjudged to be mentally ill” pursuant to CS § 8408(b). The jury’s not criminally responsible verdict undoubtedly means that Mr. Aleman
suffered from a mental illness severe enough to lead him to commit a crime. Because a
person whose mental illness drives him or her “to commit a criminal act is likely to remain
ill and in need of treatment,” Jones, 463 U.S. at 366, the illness is continuing in nature. It
stands to reason that given this understanding, Mr. Aleman’s mental illness—clearly
established at the time of the crime—continues through and beyond the not criminally
responsible verdict.
Therefore, I would reverse the judgment of the Court of Special Appeals and hold
that Maryland possesses the requisite jurisdiction to commit Mr. Aleman to an MDH
facility and that a not criminally responsible verdict necessitates the application of the
tolling provision contained in CS § 8-408(b).

4
App. 45

Pablo Javier Aleman v. State of Maryland, Nos. 823 and 2021, September Term, 2018.
Argued: May 13, 2019. Opinion by Gould, J.
EXTRADITION AND DETAINERS – CONSTITUTIONAL AND STATUTORY
PROVISIONS; INTERSTATE AGREEMENT – CUSTODY, TRANSFER AND
RETURN OF PRISONER
Md. Code Ann., Crim. Proc. § 3-112 (2001, 2018 Repl. Vol.), which requires Maryland to
commit to the Department of Health a defendant found not criminally responsible by reason
of insanity, does not apply to a defendant whose presence in Maryland is a result of the
Interstate Agreement on Detainers. Therefore, pursuant to the Interstate Agreement on
Detainers, the defendant must be promptly returned to the state of original incarceration—
the “sending state”—once the Maryland charges have been tried. The Interstate Agreement
on Detainers specifies that Maryland’s custody over such a prisoner is limited to
prosecuting Maryland’s charges against him, and for all other purposes, the sending state
retains custody and jurisdiction over the prisoner. Accordingly, Maryland does not have
sufficient custodial rights over such a prisoner to apply Md. Code Ann., Crim. Proc. § 3112 (2001, 2018 Repl. Vol.).

EXTRADITION AND DETAINERS – CONSTITUTIONAL AND STATUTORY
PROVISIONS; INTERSTATE AGREEMENT – CUSTODY, TRANSFER AND
RETURN OF PRISONER
Article VI of the Interstate Agreement on Detainers—which states that the Interstate
Agreement on Detainers does not apply to a prisoner who is adjudged to be mentally ill—
is not triggered when a defendant is found not criminally responsible by reason of insanity
after he has already been transferred from the state of incarceration to face charges in
another state. Based on the plain language, context, and purpose of the Interstate
Agreement on Detainers, Article VI applies to a defendant adjudicated to be currently
mentally ill, not to a defendant found to have been mentally at the time the underlying
crime was committed.

App. 46

Circuit Court for Baltimore County
Case Nos. 03-C-18-006040 & 03-K-16-006061

REPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
Nos. 823 & 2021
September Term, 2018
______________________________________
PABLO JAVIER ALEMAN
v.
STATE OF MARYLAND
______________________________________
Fader, C.J.,
Gould,
Harrell, Glenn T., Jr.
(Senior Judge, Specially Assigned),
JJ.
______________________________________
Opinion by Gould, J.
______________________________________
Filed: September 25, 2019

Pursuant to Maryland Uniform Electronic Legal
Materials Act
(§§ 10-1601 et seq. of the State Government Article) this document is authentic.

2019-09-25 13:36-04:00

Suzanne C. Johnson, Clerk

App. 47

Appellant Pablo Javier Aleman pleaded guilty to the second-degree murder of his
former landlord, for which a Baltimore County jury found him not criminally responsible
(“NCR”). Ordinarily, a finding of NCR would require the court to commit the defendant
to the Maryland Department of Health (“Department of Health”), which in turn would
admit him to an appropriate facility for the evaluation and treatment of any mental illnesses.
This was no ordinary case. Mr. Aleman had been serving a prison sentence in Ohio
when Maryland took temporary custody of him under the Interstate Agreement on
Detainers (“IAD”) for the limited purpose of trying him for the Maryland charges. Under
the IAD, once the Maryland trial was over, Maryland’s temporary custody over Mr.
Aleman ended and it was required to promptly return him to Ohio.
Understandably, Mr. Aleman would prefer to be evaluated and, if necessary, treated
for any mental disorders in Maryland rather than be incarcerated in Ohio. To this end, he
argues that the statutory obligation to commit him to the Department of Health supersedes
any obligation Maryland may otherwise have under the IAD to return him to Ohio. In
support of his argument, Mr. Aleman points to a provision of the IAD that specifies that
none of its provisions or remedies shall apply to a prisoner who is adjudged to be mentally
ill.
This appeal emerges from the intersection of these seemingly conflicting statutes
and requires us to consider what happens when a prisoner—who has invoked the benefit
of a speedy trial in Maryland made possible by the IAD—is then adjudged to have been
mentally ill at the time he committed the crime in that state. We find that here, the IAD
still applies to Mr. Aleman notwithstanding the jury’s finding of NCR, and Maryland,

App. 48

having had only temporary custody of Mr. Aleman, must return him to Ohio as required
by the IAD. Accordingly, we shall affirm the judgment of the circuit court.
BACKGROUND
I.

THE UNDERLYING CASE
In early 2016, Mr. Aleman fatally stabbed his former landlord at the latter’s home

in Baltimore County. He then fled Maryland. Two weeks later, in Ohio, Mr. Aleman had
an altercation with the police during which he threatened an officer with a knife. The
officer shot Mr. Aleman to disarm and apprehend him. Mr. Aleman was heard to say, “I
don’t want to kill somebody else. [] I wanted the officer to kill me.” An Ohio jury
convicted Mr. Aleman of felonious assault, resulting in an eleven-year prison sentence.
Maryland authorities notified Ohio of the charges still pending in Maryland by way
of a “detainer.” As a result, Mr. Aleman filed a request under the IAD to face trial for the
murder charges pending against him in Maryland.

In requesting disposition of the

Maryland charges, Mr. Aleman signed an agreement stating that he “consent[s] to be . . .
returned” to Ohio after trial. Upon his return to Maryland, Mr. Aleman asserted a plea of
NCR and then pleaded guilty to second degree murder. From the results of an examination
ordered by the circuit court pursuant to Md. Code Ann., Crim. Proc. (“CP”) § 3-111(a)
(2001, 2018 Repl. Vol.),1 the circuit court determined that Mr. Aleman was competent to
stand trial.
1

CP § 3-111(a) states that “[i]f a defendant has entered a plea of not criminally
responsible, the court may order the Health Department to examine the defendant to
determine whether the defendant was not criminally responsible under § 3-109 of this title
and whether the defendant is competent to stand trial.”
2
App. 49

Mr. Aleman’s plea of NCR was tried by a jury on May 31, 2018. The jury found
that he was NCR at the time of the murder, and the court entered an order committing him
to the Department of Health.
Local officials refused to transport Mr. Aleman to the Department of Health facility,
and instead “prepared to return him to Ohio” pursuant to the IAD. Mr. Aleman filed a
petition for a writ of habeas corpus to challenge his continued confinement in the local
detention center, arguing that he should have been committed to the Department of Health
instead. The court denied the habeas corpus petition and determined that Mr. Aleman
should be sent back to Ohio.2 The court stayed its prior order of commitment to the
Department of Health but enjoined Maryland from returning him to Ohio pending this
appeal.3

2

Although an appeal generally may not be taken of an order denying habeas corpus
relief, an exception exists in extradition cases and in cases where the writ is sought for a
purpose other than to challenge the legality of a conviction or sentence. See, e.g., Simms
v. Maryland Dep’t of Health, 240 Md. App. 294, 312, cert. granted sub nom. Simms v.
State, 464 Md. 10 (2019). As Mr. Aleman is not challenging any conviction or sentence
but is instead resisting Maryland’s attempt to return him to Ohio, the underlying order is
appealable. See Statchuk v. Warden, Maryland Penitentiary, 53 Md. App. 680, 683 (1983)
(permitting appeal of order denying defendant’s petition for writ of habeas corpus to block
his extradition under the IAD).
3

Mr. Aleman subsequently filed a second petition for habeas corpus, which was
denied in open court. This petition asked the circuit court to transfer Mr. Aleman to a
Department of Health facility pending the disposition of this appeal. Mr. Aleman noted an
appeal from the court’s denial of his second petition. Mr. Aleman’s two appeals have been
consolidated. With the issuance of this decision, the second appeal is now moot. See Cane
v. EZ Rentals, 450 Md. 597, 611 (2016) (quotation omitted) (stating that an appeal is moot
when “any judgment or decree the court might enter would be without effect”).
3
App. 50

II.

THE INTERSTATE AGREEMENT ON DETAINERS
Before addressing the parties’ specific arguments, and to place the parties’

contentions in their appropriate context, we first briefly address the history and framework
of the IAD. The IAD is an interstate compact designed to facilitate the orderly disposition
of detainers. A “detainer” is “a notification filed with the institution in which a prisoner is
serving a sentence, advising that he is wanted to face pending criminal charges in another
jurisdiction.” State v. Pair, 416 Md. 157, 161 n.2 (2010) (citing Stone v. State, 344 Md.
97, 108 (1996)). Prior to the IAD, unresolved detainers were known to complicate the
prisoner’s ability to fully participate in the rehabilitative, educational, and vocational
services and programs offered by the incarcerating institution. State v. Jefferson, 319 Md.
674, 679-80 (1990) (citing Carchman v. Nash, 473 U.S. 716, 730 (1985)). Such problems
were described by the Court of Appeals in Jefferson:
[T]he inmate is (1) deprived of an opportunity to obtain a sentence to run
concurrently with the sentence being served at the time the detainer is filed;
(2) classified as a maximum or close custody risk; (3) ineligible for initial
assignments to less than maximum security prisons (i.e., honor farms or
forestry camp work); (4) ineligible for trustee status; (5) not allowed to live
in preferred living quarters such as dormitories; (6) ineligible for studyrelease programs or work-release programs; (7) ineligible to be transferred
to preferred medium or minimum custody institutions within the correctional
system, which includes the removal of any possibility of transfer to an
institution more appropriate for youthful offenders; (8) not entitled to
preferred prison jobs which carry higher wages and entitle [him] to additional
good time credits against [his] sentence; (9) inhibited by the denial of
possibility of parole or any commutation of his sentence; (10) caused anxiety
and thus hindered in the overall rehabilitation process since he cannot take
maximum advantage of his institutional opportunities.
Id.

4
App. 51

In 1956, the Council of State Governments drafted what would become the IAD to
address such problems. Pair, 416 Md. at 160. The IAD took the form of a congressionallysanctioned compact between its member states.4 Id. Maryland adopted the IAD in 1965,
and it has been adopted by forty-eight states, the Federal Government, Puerto Rico, the
U.S. Virgin Islands, and the District of Columbia. Id. Under the IAD, the states agreed to
limit their authority over certain prisoners in exchange for the right to quickly dispose of
untried indictments of defendants serving time in other states. See Thomas R. Clark, The
Effect of Violations of the Interstate Agreement on Detainers on Subject Matter
Jurisdiction, 54 Fordham L. Rev. 1209, 1218 n.46 (1986) (“The IAD is a limitation on the
receiving state.”).
The IAD is triggered by the filing of a detainer. Once filed, the incarcerating state
(the “sending state”) must notify the prisoner that the detainer has been filed and advise
him of his right to a speedy disposition of the underlying charges in the state that filed the
detainer (the “receiving state”). See, e.g., Md. Code Ann., Corr. Servs. (“CS”) § 8-405(c)
(1999, 2017 Repl. Vol.).
The IAD has two mechanisms by which the prisoner may be transferred to the
receiving state. First, Article III (codified in Maryland as CS § 8-405) gives the prisoner
the right to demand a speedy disposition of the pending charges. Pair, 416 Md. at 162
(citing Carchman, 473 U.S. at 718-19). If the receiving state does not bring the prisoner to

4

States are free to enter into compacts with other states under which they agree to
restrict the exercise of their governmental powers. United States v. Bekins, 304 U.S. 27,
52 (1938).
5
App. 52

trial within 180 days of his request, the IAD requires the receiving state to dismiss the
charges with prejudice. See CS § 8-405(a).
Second, Article IV (CS § 8-406) permits the receiving state to request the transfer
of the prisoner to stand trial. Pair, 416 Md. at 162 (citing Reed v. Farley, 512 U.S. 339,
341 (1994)). Under this provision, the receiving state must start the trial within 120 days
of the prisoner’s arrival in the receiving state or risk dismissal of the charges. See CS § 8406(c).
Under either mechanism, the IAD enables the orderly transfer from the sending state
to the receiving state. The receiving state obtains only temporary custody of the prisoner
for the limited purpose of prosecuting the outstanding charges; for all other purposes, the
sending state retains custody over the prisoner. CS § 8-406(d), (g). The receiving state,
therefore, must return the prisoner to the sending state promptly after the trial. CS § 8406(e).
DISCUSSION
I.

THE PARTIES’ CONTENTIONS5
Mr. Aleman contends that CP § 3-112—which requires Maryland to commit to the

Department of Health any defendant deemed not criminally responsible—prevents
Maryland from sending him back to Ohio to serve his sentence there. This statute states,
in relevant part:

5

We include in this section the arguments advanced by the parties both in their
briefs and at oral argument.
6
App. 53

Except as provided in subsection (f) of this section, after a verdict of not
criminally responsible, the court shall order the defendant committed to the
facility that the Health Department designates for institutional inpatient care
or treatment.
CP § 3-112(b).
Pointing to the use of the word “shall” in CP § 3-112, Mr. Aleman argues that
Maryland’s obligation to commit him to the custody of the Department of Health is not a
matter of discretion, and therefore overrides the IAD’s requirement that he be returned to
Ohio.6 Mr. Aleman further argues that the IAD no longer applies to him, because it was
rendered inapplicable by Article VI of the IAD (CS § 8-408), which states that the IAD
does not apply to any defendant who is adjudged to be mentally ill. With the IAD out of
the way, Mr. Aleman maintains that Maryland has no choice but to comply with CP § 3112. In Mr. Aleman’s analysis of the plain language in CS § 8-408(b), he sees no reason
not to apply it to the jury’s finding that he had been insane two years earlier when he had
committed the underlying crime. And in any event, Mr. Aleman argues the jury’s finding
in this case creates an inference that he was mentally ill at the time of the verdict, thus
falling within the present tense phrasing used in CS § 8-408(b).
The State counters that Maryland had only temporary custody over Mr. Aleman to
begin with, and that this custody ended once he entered his guilty plea. At that point, the

6

As further support, Mr. Aleman observes that in 2018, the General Assembly
imposed a degree of urgency by amending CP § 3-112 to require that the defendant be
admitted to a Department of Health facility within 10 business days after it receives the
order of commitment. See CP § 3-112(e). He contends that the General Assembly did this
in recognition of the public safety and due process problems associated with any delays in
the prisoner’s treatment.
7
App. 54

IAD required Maryland to send Mr. Aleman back to Ohio under CS § 8-407(e). Any
contrary finding would, according to the State, undermine the dual purposes of the IAD of
expediting the resolution of untried charges and establishing procedures designed to
promote cooperation among the participating states to facilitate the expeditious resolution
of detainers. These purposes were fulfilled once Mr. Aleman pleaded guilty to the charges
because, at that point, there were no remaining charges looming over Mr. Aleman’s head.
Accordingly, the State argues its obligation to return Mr. Aleman to Ohio ripened before
the jury even came back with its finding of NCR.7
As to whether CS § 8-408(b) applies, the State argues that it only applies when a
prisoner is still physically located in the sending state, because it is at that point that
objections to his transfer based on mental incompetence can be raised and resolved. In Mr.
Aleman’s case, the State contends, § 8-408(b) could have potentially prevented his transfer
from Ohio to Maryland had he been deemed mentally ill at that time, but did not apply
once he was transferred to Maryland.
Finally, the State argues that Mr. Aleman waived any rights he might otherwise have
had to remain in Maryland when he invoked his rights under the IAD to be transferred to

7

For purposes of applying the IAD, the State views the mental health treatment
requirements for defendants found NCR as akin to post-trial sentencing proceedings. In
reliance upon U.S. v. Coffman, 905 F.2d 330, 332 (10th Cir. 1990), the State argues that
the anti-shuttling provisions of the IAD—prohibiting the receiving state from returning a
prisoner to the sending state prior to trial—do not encompass sentencing and should not
apply to post-trial mental health treatment for those found to be NCR. Mr. Aleman
vehemently contests the State’s position, contending that the NCR trial is part of a single
consolidated trial pursuant to Md. Rule 4-314. Because we affirm the circuit court’s
decision on other grounds, we will not address this argument.
8
App. 55

Maryland to stand trial. For this proposition, the State relies on Mr. Aleman’s written
demand to be transferred, which he signed in the presence of two witnesses, that states his
“consent to be voluntarily returned to [Ohio in accordance with the provisions of the IAD].”
II.

ANALYSIS
At bottom, this appeal turns on our interpretation of the relevant provisions of the

IAD, as well as CP § 3-112. We review the circuit court’s interpretation of those provisions
without deference. See Pitts, 205 Md. App. at 486 (applying a non-deferential standard to
circuit court’s interpretation and application of the IAD). We must determine whether the
circuit court’s interpretation of the relevant statutes was legally correct without deferring
to its conclusions. See, e.g., Smith v. Wakefield, LP, 462 Md. 713, 723 (2019).
We begin with the principles of statutory construction that guide our inquiry. Our
objective in interpreting any statute is to understand and implement the General
Assembly’s intent. See, e.g., Stoddard v. State, 395 Md. 653, 661 (2006) (quotations
omitted). We start with the statute’s plain language which, if clear and unambiguous, will
be enforced as written. Id. at 661 (quotation omitted) (noting that “to determine that
purpose or policy, we look first to the language of the statute, giving it its natural and
ordinary meaning”). We also pay attention to the statute’s grammar and sentence structure.
Mazor v. State Dep’t of Correction, 279 Md. 355, 362 (1977) (“As a corollary of the rule
that we accord words their ordinary meaning, we must accord sentences an ordinary
grammatical structure.”). This includes looking at the use of verb tenses. See In re Charles
K., 135 Md. App. 84, 98 (2000) (“What we find most significant is the change of tenses
within the statutory definition.”).
9
App. 56

If the words are ambiguous, we look at the statute’s structure (including its title),
context, relationship with other laws, and legislative history, among other indicia of intent.
Stoddard, 395 Md. at 662-63 (quotation omitted).8 Examining the context of the statute
includes construing provisions within the same section of the statute harmoniously, if
possible. George Wasserman & Janice Wasserman Goldsten Family LLC v. Kay, 197 Md.
App. 586, 628 (2011); see also Gardner v. State, 344 Md. 642, 649-50 (1997). In addition,
we strive to avoid interpretations that lead to unreasonable or illogical results.
Kaczorowski v. Mayor & City Council of Baltimore, 309 Md. 505, 510-16 (1987).
The IAD specifically commands us to construe it “so as to effectuate its purposes.”
See, e.g., CS § 8-411. And with so many signatories to the IAD, the drafters wisely left no
room for any doubt as to its purposes. Thus, Article I, entitled “Findings of party states;
purpose of Agreement,” provides:
The party states find that charges outstanding against a prisoner, detainers
based on untried indictments, informations, or complaints, and difficulties in
securing speedy trial of persons already incarcerated in other jurisdictions,
produce uncertainties which obstruct programs of prisoner treatment and
rehabilitation. Accordingly, it is the policy of the party states and the purpose
of this Agreement to encourage the expeditious and orderly disposition of
such charges and determination of the proper status of any and all detainers
based on untried indictments, informations, or complaints. The party states
also find that proceedings with reference to such charges and detainers, when
emanating from another jurisdiction, cannot properly be had in the absence
of cooperative procedures. It is the further purpose of this Agreement to
provide such cooperative procedures.

8

Even if the words are unambiguous, a review of the legislative history may in
certain contexts be useful to confirm its interpretation or to rule out “another version of the
legislative intent alleged to be latent in the language.” Blackstone v. Sharma, 461 Md. 87,
113 (2018) (quotation omitted).
10
App. 57

Md. Code Ann., CS § 8-403. As stated by the Court of Appeals, the IAD has two main
purposes: “(1) to encourage the expeditious disposition of charges; and (2) to provide
cooperative procedures among member jurisdictions to facilitate such disposition.”
Clipper v. State, 295 Md. 303, 307 (1983). These goals serve the interests of both the
prisoner and the states. Boyd v. State, 51 Md. App. 197, 202, aff’d, 294 Md. 103 (1982).
A.

Application of CP § 3-112

Armed with both the canons of interpretation as well as the express intent of the
IAD, we test the merits of Mr. Aleman’s argument that CP § 3-112 requires that he remain
in Maryland for treatment, notwithstanding any contrary provisions of the IAD.
On the face of these two statutes, it appears that CP § 3-112 is pulling Mr. Aleman
in one direction (to the Department of Health), and the IAD is pulling him in a different
direction (back to Ohio). Our task is to harmonize these seemingly inconsistent statutory
mandates. See, e.g., Montgomery Cty. v. Robinson, 435 Md. 62, 77 (2013). We can do
that by distinguishing between the custodial rights obtained by Maryland and those retained
by Ohio.9

9

The parties were asked to submit supplemental briefs on the role that the
Supremacy Clause in Article VI, Clause 2 of the United States Constitution and its
counterpart in Article 2 of Maryland’s Declaration of Rights would play in the event this
Court found CP § 3-112 to be in conflict with the IAD. Although we appreciate the helpful
analysis provided by the parties’ counsel, we are able to resolve the case on other grounds
and therefore, under the constitutional avoidance doctrine, we do not decide that issue. See
Sumpter v. Sumpter, 427 Md. 668, 684 n.10 (2012) (citations omitted) (noting that the
doctrine of “[c]onstitutional avoidance” mandates that a court “will not reach a
constitutional argument when an issue may be decided on a non-constitutional basis”); see
also Wells v. Chevy Chase Bank, F.S.B., 363 Md. 232, 252 (2001) (applying the doctrine
to avoid deciding whether a Maryland statute was preempted by federal law).
11
App. 58

The unstated assumption of, and condition precedent to, the State’s ability to apply
CP § 3-112 is that Maryland must have custody and jurisdiction over the defendant in the
first place. See, e.g., Baker v. Marbury, 216 Md. 572, 574 (1958) (denying habeas petition
filed in Maryland by a defendant “in custody” of federal officials in Virginia because the
“State cannot act where the prison is not within its borders”). Under the IAD, however,
Maryland agreed that it had acquired only temporary custody over Mr. Aleman, and that
its temporary custody had been strictly limited to prosecuting the charges against him. See
CS § 8-407(d); see also CS § 8-407(a) (the sending state agrees to transfer temporary
custody “in order that speedy and efficient prosecution may be had”). Maryland agreed
that for all other purposes, Mr. Aleman had remained “in the custody of and subject to the
jurisdiction of” Ohio. CS § 8-407(g).10

10

CS § 8-407 provides:

(a) In response to a request made under § 8-405 or § 8-406 of this subtitle
(Article III or IV of the Agreement), the appropriate authority in a sending
state shall offer to deliver temporary custody of the prisoner to the
appropriate authority in the state where the indictment, information, or
complaint is pending against the prisoner in order that speedy and efficient
prosecution may be had. If the request for final disposition is made by the
prisoner, the offer of temporary custody shall accompany the written notice
required under § 8-405 of this subtitle (Article III of the Agreement). In the
case of a federal prisoner, the appropriate authority in the receiving state shall
be entitled to temporary custody as provided by this Agreement or to the
prisoner’s presence in federal custody at the place for trial, whichever
custodial arrangement may be approved by the custodian.
(b) The officer or other representative of a state accepting an offer of
temporary custody shall present the following upon demand:

12
App. 59

(1) proper identification and evidence of the officer’s authority to act
for the state into whose temporary custody the prisoner is to be given;
and
(2) a duly certified copy of the indictment, information, or complaint
on the basis of which the detainer has been lodged and on the basis of
which the request for temporary custody of the prisoner has been
made.
(c) If the appropriate authority shall refuse or fail to accept temporary custody
of the person, or in the event that an action on the indictment, information,
or complaint on the basis of which the detainer has been lodged is not brought
to trial within the period provided in § 8-405 or § 8-406 of this subtitle
(Article III or IV of the Agreement), the appropriate court of the jurisdiction
where the indictment, information, or complaint has been pending shall enter
an order dismissing the same with prejudice, and any detainer based on the
indictment, information, or complaint shall cease to be of any force or effect.
(d) The temporary custody referred to in this Agreement shall be only for the
purpose of permitting prosecution on the charge or charges contained in one
or more untried indictments, informations, or complaints that form the basis
of the detainer or detainers or for prosecution on any other charge or charges
arising out of the same transaction. Except for the prisoner’s attendance at
court and while being transported to or from any place at which the prisoner’s
presence may be required, the prisoner shall be held in a suitable jail or other
facility regularly used for persons awaiting prosecution.
(e) At the earliest practicable time consonant with the purposes of this
Agreement, the prisoner shall be returned to the sending state.
(f) During the continuance of temporary custody or while the prisoner is
otherwise being made available for trial as required by this Agreement, time
being served on the sentence shall continue to run but good time shall be
earned by the prisoner only if, and to the extent that, the law and practice of
the jurisdiction that imposed the sentence may allow.
(g) For all purposes other than that for which temporary custody as provided
in this Agreement is exercised, the prisoner shall be deemed to remain in the
custody of and subject to the jurisdiction of the sending state. Any escape
from temporary custody may be dealt with in the same manner as an escape
13
App. 60

Accordingly, before Mr. Aleman’s transfer to Maryland, Ohio had full and
exclusive custody of, and jurisdiction over, Mr. Aleman, meaning that the entire bundle of
custodial rights and obligations over Mr. Aleman rested with Ohio. When Maryland
received Mr. Aleman under the IAD, it acquired just a single strand from that bundle,
namely, the right to prosecute Mr. Aleman for the charges underpinning the detainer. See
State of N.Y. by Coughlin v. Poe, 835 F. Supp. 585, 590-91 (E.D. Ok. 1993) (“Thus, when
read in conjunction with the ‘prosecution’ allowed by Article V(d), the phrase ‘temporary
custody’ equates with physical control over a prisoner only for the limited period of time
involved in adjudicating the charges against him.”). Once Maryland exercised its lone
custodial right over Mr. Aleman, it had none left. In that sense, for any purpose other than
Maryland’s prosecution of Mr. Aleman, it was as if Mr. Aleman had never left Ohio. Cf.
Stewart v. State, 275 Md. 258, 270 (1975) (for purposes of prosecuting an escaped prisoner,

from the original place of imprisonment or in any other manner permitted by
law.
(h) From the time that a party state receives custody of a prisoner under this
Agreement until the prisoner is returned to the territory and custody of the
sending state, the state in which the one or more untried indictments,
informations, or complaints are pending or in which trial is being had shall
be responsible for the prisoner and shall also pay all costs of transporting,
caring for, keeping, and returning the prisoner. The provisions of this
subsection shall govern unless the states concerned shall have entered into a
supplementary agreement providing for a different allocation of costs and
responsibilities as between or among themselves. Nothing herein contained
shall be construed to alter or affect any internal relationship among the
departments, agencies, and officers of and in the government of a party state,
or between a party state and its subdivisions, as to the payment of costs, or
responsibilities therefor.
14
App. 61

“‘constructive’ custody remains in the place of confinement to which the prisoner had been
committed and it is legally indistinguishable from ‘actual’ custody”). Seen in this light,
Maryland does not have, and in fact never had, sufficient custodial rights over Mr. Aleman
to have applied CR § 3-112 to him.11 Thus, CR § 3-112 is no barrier to Maryland’s duty
under the IAD to return Mr. Aleman to Ohio.
B.

Application of CS § 8-408

Relying on CS § 8-408(b), Mr. Aleman denies the continuing applicability of any
provision of the IAD once the jury had returned its verdict of NCR. As Mr. Aleman sees
it, none of the provisions of the IAD, including its allocation of custodial rights and its
requirement to return the prisoner to the sending state upon completion of the prosecution,
apply to him now.
CS § 8-408 states:
(a) In determining the duration and expiration dates of the time periods
provided in §§ 8-405 and 8-406 of this subtitle (Articles III and IV of the
Agreement), the running of these time periods shall be tolled whenever and
for as long as the prisoner is unable to stand trial, as determined by the court
having jurisdiction of the matter.
(b) No provision of this Agreement, and no remedy made available by this
Agreement, shall apply to any person who is adjudged to be mentally ill.
Mr. Aleman’s interpretation and application of CS § 8-408(b) does not square with either
its plain language or the purpose and context behind it. We explain.12

11

This opinion does not speak to the nature and extent of Maryland’s future
custodial rights over Mr. Aleman once he completes his sentence in Ohio.
12
Because it is not necessary to resolve the issues in this appeal, we do not address
the meaning of “mentally ill” as used in CS § 8-408.
15
App. 62

1.

The Plain Language of CS § 8-408

The plain language and structure of subsection (b) indicates that it applies only to
prisoners who have been adjudged mentally ill in the time frame in which the gears of the
IAD have been engaged. This subsection speaks in the present tense with the phrase “who
is adjudged to be mentally ill.” CS § 8-408(b) (emphasis added). The use of the present
tense signifies that the prisoner’s mental illness must be contemporaneous with the
adjudication. See, e.g., Worcester Cty. Welfare Bd. v. Wyatt, 219 Md. 507, 511 (1959)
(“The use of the present tense imports that the receipt must be contemporaneous with the
death in order for the section to apply.”). Had the drafters intended for § 8-408(b) to apply
to any person adjudged to have been mentally ill at the time the crime had been committed
as Mr. Aleman contends, they could have used the present perfect tense to express that
intention. See Pitts, 205 Md. App. at 488 (quotation omitted) (“The present perfect tense .
. . indicates that an event occurred in the past prior to other events and implies that once
the event has occurred . . . certain consequences result”). For example, the drafters could
have used the words “who is adjudged to be or to have been mentally ill” to indicate that a
past mental illness would trigger application of § 8-408(b). That the drafters chose not to
use such language suggests that they meant to limit application only to cases of mental
illness that exist at the time the IAD has been invoked.
In light of its present tense formulation, Mr. Aleman does not adequately explain
how or why the jury’s NCR verdict implicates CS § 8-408(b). Mr. Aleman was found to
have been NCR at the time he killed his former landlord, on March 17, 2016. As dictated

16
App. 63

by the NCR statute,13 the instructions to the jury,14 and the verdict sheet,15 the jury’s focus
was solely on his psychological state at the time of the murder, not at the time of trial. As
such, CS § 8-408(b) does not apply here.

13

CP § 3-109(a) states:

A defendant is not criminally responsible for criminal conduct if, at the time
of that conduct, the defendant, because of a mental disorder or mental
retardation, lacks substantial capacity to:
(1) appreciate the criminality of that conduct; or
(2) conform that conduct to the requirements of law.
14

The circuit court instructed the jury:

You have heard evidence that Mr. Aleman was not criminally
responsible for his conduct by reason of insanity. A defendant is not
criminally responsible by reason of insanity if at the time of the criminal act
because of a mental disorder the Defendant lacked the substantial capacity
either, one, to appreciate the criminality of the conduct; or to conform that
conduct to the requirements of law.
***
The burden is on the Defendant to establish that he is not criminally
responsible. The defense must persuade you by a preponderance of the
evidence that at the time of the criminal act as a result of a mental disorder,
the Defendant either lacked the substantial capacity to appreciate the
criminality of his conduct or lacked the substantial capacity to conform his
conduct to the requirements of the law.
15

The verdict sheet asked the jury:

As to Murder in the Second Degree, do you find by a preponderance of the
evidence that the Defendant was not criminally responsible by reason of
insanity?

17
App. 64

Article VI(b) has received scant attention from the state and federal courts, but the
cases that have addressed it have also applied the provision to the current mental condition
of the prisoner, not the past condition. In State v. Beauchene, 541 A.2d 914 (Me. 1988),
relied upon by both parties, the defendant was found NCR by a jury in Maine, escaped
Maine’s custody, fled to New York and committed crimes there, causing his arrest,
conviction, and incarceration in New York. Id. at 915. While in New York, the defendant
argued that under the IAD, he could not be returned to Maine to face charges for the escape
because, under Article VI(b), the prior finding of NCR some eight years earlier in Maine
meant that the IAD no longer applied to him. Id. at 917. In rejecting the defendant’s
contention, the Supreme Court of Maine held that the “purpose of Article VI(B) . . . is
clearly to prevent one state from gaining custody of an individual in another state who at
that time is mentally ill and therefore unable to defend against the custody change
effectively.”16 Id. at 917 (emphasis added). Thus, “any such objection to defendant’s

16

Mr. Aleman also cites to Bowman v. Wilson, 514 F. Supp. 403, 409 (E.D. Pa.
1981), rev’d in part, vacated in part, 672 F.2d 1145 (3d Cir. 1982) for the proposition that
Article VI(b) applies to prisoners who have been previously acquitted by reason of insanity.
We are not persuaded. In Bowman, the issue faced by the court was whether the Army
could lawfully take Private Bowman into custody while he was committed to a mental
hospital, in derogation of specific orders of the District of Columbia courts. Id. at 405. As
part of the Army’s argument that Private Bowman lacked standing to challenge his
detainment, it argued that he had no independent right to a hearing prior to transfer of
custody. Id. at 409. The court noted that such a right could not come from the IAD,
because “Private Bowman has been acquitted by reason of insanity of charges against him
in the District of Columbia,” and thus under Article VI(b), the IAD did not apply. Id. This
offhand observation played no part in the court’s decision on standing (that Private
Bowman could challenge his detainment) or ultimate holding (that the Army had
unlawfully defied the D.C. court’s orders), and was thus dictum. Stover v. Stover, 60 Md.
App. 470, 476 (1984) (citation omitted) (defining “dictum” as “a remark, an aside,
18
App. 65

transfer by New York should have been raised in the New York courts and is not properly
raised here [in the receiving state].” Id. at 917; see also State v. King, 733 P.2d 472, 478
(Or. 1987) (holding that Article VI(b) applies “only to persons presently in the sending
state, that the issue should have been raised in Washington and that defendant had already
been found able to assist in his defense”).17
Mr. Aleman’s fallback position is that the jury’s finding of NCR created an
inference that he remained mentally ill through his Maryland trial, and therefore the present
tense element of CS § 8-408(b) has been satisfied in this case. We disagree, as this
contention would have us disregard two intervening events that cut against such an
inference. The first was Mr. Aleman’s trial in Ohio where, from the fact that he was found
guilty and was sentenced to a term of imprisonment, we can fairly deduce that he either did
not plead an insanity defense, or if he did, it was unsuccessful. The second was the
competency evaluation that Mr. Aleman underwent in Maryland finding that he was fit to
stand trial. On the facts contained in this record, therefore, we do not perceive an adequate
basis to make the inferential leap that Mr. Aleman would have us make here.
Moreover, purely as a matter of statutory construction, even if a finding of NCR by
a jury in the receiving state could be deemed to have created an inference of a present-day

concerning some rule of law or legal proposition that is not necessarily essential to the
decision and lacks the authority of adjudication”). We decline to base our decision on such
dictum.
17

Because the facts in this case do not raise the issue, we need not decide whether
§ 8-408(b) may be triggered if the receiving state finds the defendant unfit to stand trial.

19
App. 66

mental illness, that alone would not be enough to implicate CS § 8-408(b). By its terms,
section 8-408(b) is triggered by an adjudication of an actual, present mental illness, not an
adjudication that at best creates an inference of a present mental illness. Thus, § 8-408(b)
does not apply here.18

18

Mr. Aleman cites two cases to bolster his assertion that a verdict of not criminally
responsible “supports an inference of continuing mental illness.” The two cases are Lynch
v. Overholser, 369 U.S. 705, 717 (1962) and Jones v. United States, 463 U.S. 354, 366
(1983). Both cases involved due process challenges to the District of Columbia’s
mandatory commitment statute following verdicts of not guilty by reason of insanity. The
essence of the defendants’ due process arguments in both cases was that a finding of NCR
did not establish a present mental illness, and therefore the defendants were deprived of
due process when they were committed as a result of that finding. Neither case held,
however, that an adjudication of NCR at the time the crime was committed constitutes an
adjudication that the defendant is currently mentally ill. In fact, the earlier case, Lynch,
undermines this proposition. There, the defendant did not plead an insanity defense and
denied being currently mentally ill. Nevertheless, from the evidence put on by the
prosecution, the judge in the bench trial found him not guilty by reason of insanity. 369
U.S. at 709, 719-20. The Supreme Court avoided the question of whether the commitment
statute satisfied due process. Id. at 709-10. Instead, the Court interpreted the broadlywritten mandatory detention statute as being applicable only to defendants who plead the
insanity defense, not to those who do not. Id. at 713-15.
In the latter case, Jones, the Court found that a finding of NCR provided Congress
a reasonable basis to infer that a defendant remains mentally ill through the trial, thereby
justifying his continued detention. 463 U.S. at 366. In discussing the inference of
continued mental illness, however, the Court was speaking only to the reasonableness of
Congress’s rationale for the mandatory detention statute, and acknowledged that the
relevance of a jury’s finding of NCR to the defendant’s current mental state depended on
the specific facts of the case. In that regard, the Court stated:
The precise evidentiary force of the insanity acquittal, of course, may vary
from case to case, but the Due Process Clause does not require Congress to
make classifications that fit every individual with the same degree of
relevance.
463 U.S. at 366. The Supreme Court’s decisions in Jones and Lynch, therefore, do not
support Mr. Aleman’s position.

20
App. 67

2.

The Purpose and Structure of the IAD

The underlying purpose and structure of CS § 8-408(b) and the other provisions of
the IAD support our conclusion that § 8-408(b) does not apply here. The provisions of the
IAD, as explained above, carefully and precisely allocate the custodial rights and
obligations between the sending and receiving states. As applied here, Maryland acquired
only temporary custody for the limited purpose of prosecuting Mr. Aleman, and was
required to transfer him back to Ohio once that limited purpose had been fulfilled. Ohio
retained custody and jurisdiction over Mr. Aleman for every other purpose, and it had the
right to Mr. Aleman’s prompt return once Maryland concluded its prosecution of him. See
CS § 8-407(e). Yet, under Mr. Aleman’s theory, Maryland could leverage § 8-408(b) to
expand the nature and scope of its custody over Mr. Aleman while contracting the nature
and scope of Ohio’s custody. Such a result cannot be reconciled with, and in fact would
undermine, the dual objectives of the IAD to expedite the resolution of untried indictments
and to foster cooperation among the participating states.19 See Boyd, 51 Md. App. at 206
(“[t]he Agreement, as we have seen, is a comprehensive one, and all of its parts have to be
read together, in harmony, in order to carry out its dual purpose”).

19

For the same reason, we are skeptical that even if § 8-408(b) had applied to Mr.
Aleman under these circumstances, Maryland would have been permitted to keep Mr.
Aleman instead of sending him back to Ohio. Both the IAD’s purposes and underlying
framework suggest that once the IAD ceases to apply to a defendant, the sending state
should be restored to the entire bundle of custodial rights that it had before the receiving
state took temporary custody. But that is a question for another day.
21
App. 68

Mr. Aleman argues that the IAD’s purpose is to facilitate the rehabilitation of
prisoners—a goal that would be better served by keeping him in Maryland to undergo
mental health treatment. The rehabilitative aspect of the IAD’s purpose, however, is not to
promote the rehabilitation of prisoners in a general abstract sense, but rather “to minimize
the adverse impact of a foreign prosecution on rehabilitative programs of the confining
jurisdiction,” see Pair, 416 Md. at 170 (emphasis added) (quoting Painter v. State, 157 Md.
App. 1, 17 (2004)), not of the receiving jurisdiction. See State v. Smith, 316 Md. 223, 229
(1989) (emphasis added) (quoting Cuyler v. Adams, 449 U.S. 433, 448-49 (1981)) (“a
primary purpose of the Agreement is to protect prisoners against whom detainers are
outstanding”); Hoss v. State, 266 Md. 136, 143 (1972) (emphasis added) (citation omitted)
(the purpose of IAD is “to promote and foster prisoner treatment and rehabilitation
programs by eliminating the uncertainties which accompany the filing of detainers”). In
this case, the IAD served the purpose of preventing the looming cloud of the Maryland
detainer from interfering with Mr. Aleman’s ability to successfully avail himself of
whatever rehabilitative or treatment programs or facilities existed in Ohio.
Further, the structure of CS § 8-408 demonstrates that it was not intended to apply
to inmates, like Mr. Aleman, who have not been adjudged to be currently mentally ill.
Subsection (b) comes right after the tolling provisions in subsection (a), which states:
In determining the duration and expiration dates of the time periods provided
in §§ 8-405 and 8-406 of this subtitle (Articles III and IV of the Agreement),
the running of these time periods shall be tolled whenever and for as long as
the prisoner is unable to stand trial, as determined by the court having
jurisdiction of the matter.

22
App. 69

Construing these two subsections together, CS § 8-408 generally addresses the
possibility that the defendant is unable to stand trial or otherwise exercise rights under the
IAD, with current (as opposed to prior) mental illness being one such reason. A mentally
ill prisoner could not invoke his right to demand a transfer and even if he could, the
receiving state could not try the prisoner until his competency was restored. Section 8408(b) therefore, prevents the gears of the IAD from being engaged when the receiving
state’s ability to timely try the prisoner—at the risk of being compelled to dismiss the
charges with prejudice—has been impaired.

As one commentator explained:

The Agreement specifically withholds the benefit of its provisions from one
who has been adjudged mentally ill. Since one who is mentally ill cannot
conduct his defense and therefore cannot be tried, he is not allowed to take
advantage of a law under which failure to try him might result in dismissal
of the charges against him.
Interstate Agreement on Detainers, 32 St. John’s L. Rev. 141, 142 (1957). In this way, CS
§ 8-408 aligns with the larger purpose of the IAD as a whole—the expeditious and
cooperative disposition of charges among several jurisdictions. See Clipper, 295 Md. at
307.
CONCLUSION
Pursuant to the IAD, Maryland acquired temporary custody over Mr. Aleman for
the limited purpose of prosecuting its charges against him. The limited nature of its
custodial rights precluded Maryland from applying CP § 3-112 to Mr. Aleman
notwithstanding the jury’s finding of NCR. And, as Mr. Aleman had not been adjudicated
to be mentally ill at the time he had exercised his right under the IAD to be transferred to
Maryland to stand trial or at any time thereafter, there was no basis under CS § 8-408(b) to
23
App. 70

terminate the application of the IAD to Mr. Aleman. We therefore affirm the judgment of
the circuit court.
JUDGMENT OF THE CIRCUIT COURT
FOR BALTIMORE COUNTY
AFFIRMED; COSTS TO BE PAID BY
APPELLANT.

24
App. 71

App. 72

App. 73

App. 74

App. 75

App. 76

App. 77

App. 78

App. 79

App. 80

App. 81

App. 82

App. 83

App. 84

App. 85

App. 86

App. 87

§ 8-401. Subtitle definitions
(a) In this subtitle the following words have the meanings indicated.
(b) “Agreement” means the Interstate Agreement on Detainers, which is set forth in §§ 8-402
through 8-411 of this subtitle.
(c) “Appropriate court” means, with reference to the courts of this State, a circuit court of a
county or the District Court.
(d) “Correctional institution” means, with reference to the correctional institutions of this
State, any State or local correctional facility.
MD. CODE ANN., CORR. SERVS. § 8-401

§ 8-402. Agreement--preamble
The contracting states solemnly agree that:
MD. CODE ANN., CORR. SERVS. § 8-402

§ 8-403. Findings of party states; purpose of agreement
Article I
The party states find that charges outstanding against a prisoner, detainers based on untried
indictments, informations, or complaints, and difficulties in securing speedy trial of persons
already incarcerated in other jurisdictions, produce uncertainties which obstruct programs
of prisoner treatment and rehabilitation. Accordingly, it is the policy of the party states and
the purpose of this Agreement to encourage the expeditious and orderly disposition of such
charges and determination of the proper status of any and all detainers based on untried
indictments, informations, or complaints. The party states also find that proceedings with
reference to such charges and detainers, when emanating from another jurisdiction, cannot
properly be had in the absence of cooperative procedures. It is the further purpose of this
Agreement to provide such cooperative procedures.
MD. CODE ANN., CORR. SERVS. § 8-403

§ 8-404. Definitions
Article II
(a) As used in this Agreement the following words have the meanings indicated.
(b) “Receiving state” means the state in which trial is to be had on an indictment, information,
or complaint pursuant to § 8-405 or § 8-406 of this subtitle (Article III or IV of the Agreement).

App. 88

(c) “Sending state” means a state in which a prisoner is incarcerated at the time that the
prisoner initiates a request for final disposition pursuant to § 8-405 of this subtitle (Article
III of the Agreement) or at the time that a request for custody or availability is initiated
pursuant to § 8-406 of this subtitle (Article IV of the Agreement).
(d) “State” means a state of the United States, the United States of America, a territory or
possession of the United States, the District of Columbia, and the Commonwealth of Puerto
Rico.
MD. CODE ANN., CORR. SERVS. § 8-404

§ 8-405. Request for final disposition of untried indictment, information, or
complaint
Article III
(a) Whenever a person has entered upon a term of imprisonment in a penal or correctional
institution of a party state, and whenever during the continuance of the term of
imprisonment there is pending in any other party state any untried indictment, information,
or complaint on the basis of which a detainer has been lodged against the prisoner, the
prisoner shall be brought to trial within 180 days after the prisoner shall have caused to be
delivered to the prosecuting officer and the appropriate court of the prosecuting officer's
jurisdiction written notice of the place of the prisoner's imprisonment and the prisoner's
request for a final disposition to be made of the indictment, information, or complaint;
provided that for good cause shown in open court, the prisoner or the prisoner's counsel being
present, the court having jurisdiction of the matter may grant any necessary or reasonable
continuance. The request of the prisoner shall be accompanied by a certificate of the
appropriate official having custody of the prisoner, stating the term of commitment under
which the prisoner is being held, the time already served, the time remaining to be served on
the sentence, the amount of good time earned, the time of parole eligibility of the prisoner,
and any decisions of the state parole agency relating to the prisoner.
(b) The written notice and request for final disposition required under subsection (a) of this
section shall be given or sent by the prisoner to the warden, commissioner of corrections, or
other official having custody of the prisoner, who shall promptly forward it together with the
certificate to the appropriate prosecuting official and court by registered or certified mail,
return receipt requested.
(c) The warden, commissioner of corrections, or other official having custody of the prisoner
shall promptly inform the prisoner of the source and contents of any detainer lodged against
the prisoner and shall also inform the prisoner of the prisoner's right to make a request for
final disposition of the indictment, information, or complaint on which the detainer is based.
(d) Any request for final disposition made by a prisoner under subsection (a) of this section
shall operate as a request for final disposition of all untried indictments, informations, or
complaints on the basis of which detainers have been lodged against the prisoner from the
state to whose prosecuting official the request for final disposition is specifically directed. The

App. 89

warden, commissioner of corrections, or other official having custody of the prisoner shall
forthwith notify all appropriate prosecuting officers and courts in the several jurisdictions
within the state to which the prisoner's request for final disposition is being sent of the
proceeding being initiated by the prisoner. Any notification sent under this subsection shall
be accompanied by copies of the prisoner's written notice, request, and the certificate. If trial
is not had on any indictment, information, or complaint contemplated hereby prior to the
return of the prisoner to the original place of imprisonment, the indictment, information, or
complaint shall not be of any further force or effect, and the court shall enter an order
dismissing the same with prejudice.
(e) Any request for final disposition made by a prisoner under subsection (a) of this section
shall also be deemed to be a waiver of extradition with respect to any charge or proceeding
contemplated thereby or included therein by reason of subsection (d) of this section, and a
waiver of extradition to the receiving state to serve any sentence there imposed on the
prisoner, after completion of the prisoner's term of imprisonment in the sending state. The
request for final disposition shall also constitute a consent by the prisoner to the production
of the prisoner's body in any court where the prisoner's presence may be required in order to
effectuate the purposes of this Agreement and a further consent voluntarily to be returned
to the original place of imprisonment in accordance with the provisions of this Agreement.
Nothing in this subsection shall prevent the imposition of a concurrent sentence if otherwise
permitted by law.
(f) Escape from custody by the prisoner subsequent to the prisoner's execution of the request
for final disposition described in subsection (a) of this section shall void the request.
MD. CODE ANN., CORR. SERVS. § 8-405

§ 8-406. Request for temporary custody
Article IV
(a) The appropriate officer of the jurisdiction in which an untried indictment, information, or
complaint is pending shall be entitled to have the prisoner against whom the officer has
lodged a detainer and who is serving a term of imprisonment in any party state made
available in accordance with § 8-407(a) of this subtitle (Article V (a) of the Agreement) upon
presentation of a written request for temporary custody or availability to the appropriate
authorities of the state in which the prisoner is incarcerated; provided that the court having
jurisdiction of the indictment, information, or complaint shall have duly approved, recorded,
and transmitted the request; and provided further that there shall be a period of 30 days
after receipt by the appropriate authorities before the request be honored, within which
period the governor of the sending state may disapprove the request for temporary custody
or availability either upon the governor's own motion or upon motion of the prisoner.
(b) Upon receipt of the officer's written request as provided under subsection (a) of this
section, the appropriate authorities having the prisoner in custody shall furnish the officer
with a certificate stating the term of commitment under which the prisoner is being held, the

App. 90

time already served, the time remaining to be served on the sentence, the amount of good
time earned, the time of parole eligibility of the prisoner, and any decisions of the state parole
agency relating to the prisoner. The authorities simultaneously shall furnish all other officers
and appropriate courts in the receiving state who have lodged detainers against the prisoner
with similar certificates and with notices informing them of the request for custody or
availability and of the reasons therefor.
(c) In respect of any proceeding made possible by this section (Article IV of the Agreement),
trial shall be commenced within 120 days of the arrival of the prisoner in the receiving state,
but for good cause shown in open court, the prisoner or the prisoner's counsel being present,
the court having jurisdiction of the matter may grant any necessary or reasonable
continuance.
(d) Nothing contained in this section (Article IV of the Agreement) shall be construed to
deprive any prisoner of any right that the prisoner may have to contest the legality of the
prisoner's delivery under subsection (a) of this section, but the delivery may not be opposed
or denied on the ground that the executive authority of the sending state has not
affirmatively consented to or ordered the delivery.
(e) If trial is not had on any indictment, information, or complaint contemplated hereby prior
to the prisoner's being returned to the original place of imprisonment under § 8-407(e) of this
subtitle (Article V (e) of the Agreement), the indictment, information, or complaint shall not
be of any further force or effect, and the court shall enter an order dismissing the indictment,
information, or complaint with prejudice.
MD. CODE ANN., CORR. SERVS. § 8-406

§ 8-407. Temporary custody for prosecution
Article V
(a) In response to a request made under § 8-405 or § 8-406 of this subtitle (Article III or IV of
the Agreement), the appropriate authority in a sending state shall offer to deliver temporary
custody of the prisoner to the appropriate authority in the state where the indictment,
information, or complaint is pending against the prisoner in order that speedy and efficient
prosecution may be had. If the request for final disposition is made by the prisoner, the offer
of temporary custody shall accompany the written notice required under § 8-405 of this
subtitle (Article III of the Agreement). In the case of a federal prisoner, the appropriate
authority in the receiving state shall be entitled to temporary custody as provided by this
Agreement or to the prisoner's presence in federal custody at the place for trial, whichever
custodial arrangement may be approved by the custodian.
(b) The officer or other representative of a state accepting an offer of temporary custody shall
present the following upon demand:
(1) proper identification and evidence of the officer's authority to act for the state into whose
temporary custody the prisoner is to be given; and

App. 91

(2) a duly certified copy of the indictment, information, or complaint on the basis of which the
detainer has been lodged and on the basis of which the request for temporary custody of the
prisoner has been made.
(c) If the appropriate authority shall refuse or fail to accept temporary custody of the person,
or in the event that an action on the indictment, information, or complaint on the basis of
which the detainer has been lodged is not brought to trial within the period provided in § 8405 or § 8-406 of this subtitle (Article III or IV of the Agreement), the appropriate court of
the jurisdiction where the indictment, information, or complaint has been pending shall enter
an order dismissing the same with prejudice, and any detainer based on the indictment,
information, or complaint shall cease to be of any force or effect.
(d) The temporary custody referred to in this Agreement shall be only for the purpose of
permitting prosecution on the charge or charges contained in one or more untried
indictments, informations, or complaints that form the basis of the detainer or detainers or
for prosecution on any other charge or charges arising out of the same transaction. Except
for the prisoner's attendance at court and while being transported to or from any place at
which the prisoner's presence may be required, the prisoner shall be held in a suitable jail or
other facility regularly used for persons awaiting prosecution.
(e) At the earliest practicable time consonant with the purposes of this Agreement, the
prisoner shall be returned to the sending state.
(f) During the continuance of temporary custody or while the prisoner is otherwise being
made available for trial as required by this Agreement, time being served on the sentence
shall continue to run but good time shall be earned by the prisoner only if, and to the extent
that, the law and practice of the jurisdiction that imposed the sentence may allow.
(g) For all purposes other than that for which temporary custody as provided in this
Agreement is exercised, the prisoner shall be deemed to remain in the custody of and subject
to the jurisdiction of the sending state. Any escape from temporary custody may be dealt with
in the same manner as an escape from the original place of imprisonment or in any other
manner permitted by law.
(h) From the time that a party state receives custody of a prisoner under this Agreement
until the prisoner is returned to the territory and custody of the sending state, the state in
which the one or more untried indictments, informations, or complaints are pending or in
which trial is being had shall be responsible for the prisoner and shall also pay all costs of
transporting, caring for, keeping, and returning the prisoner. The provisions of this
subsection shall govern unless the states concerned shall have entered into a supplementary
agreement providing for a different allocation of costs and responsibilities as between or
among themselves. Nothing herein contained shall be construed to alter or affect any internal
relationship among the departments, agencies, and officers of and in the government of a
party state, or between a party state and its subdivisions, as to the payment of costs, or
responsibilities therefor.
MD. CODE ANN., CORR. SERVS. § 8-407

App. 92

§ 8-408. Tolling of time periods when prisoner unable to stand trial; mentally ill
individuals
Article VI
(a) In determining the duration and expiration dates of the time periods provided in §§ 8-405
and 8-406 of this subtitle (Articles III and IV of the Agreement), the running of these time
periods shall be tolled whenever and for as long as the prisoner is unable to stand trial, as
determined by the court having jurisdiction of the matter.
(b) No provision of this Agreement, and no remedy made available by this Agreement, shall
apply to any person who is adjudged to be mentally ill.
MD. CODE ANN., CORR. SERVS. § 8-408

§ 8-409. Designation of officer to promulgate rules and provide information
Article VII
Each state party to this Agreement shall designate an officer who, acting jointly with like
officers of other party states, shall promulgate rules and regulations to carry out more
effectively the terms and provisions of this Agreement, and who shall provide, within and
without the state, information necessary to the effective operation of this Agreement.
MD. CODE ANN., CORR. SERVS. § 8-409

§ 8-410. Effective date of agreement; withdrawal from agreement
Article VIII
This Agreement shall enter into full force and effect as to a party state when the state has
enacted this Agreement into law. A state party to this Agreement may withdraw herefrom
by enacting a statute repealing the Agreement. However, the withdrawal of any state shall
not affect the status of any proceedings already initiated by prisoners or by state officers at
the time the withdrawal takes effect, nor shall it affect their rights in respect thereof.
MD. CODE ANN., CORR. SERVS. § 8-410

§ 8-411. Construction of agreement; severability of provisions
Article IX
This Agreement shall be liberally construed so as to effectuate its purposes. The provisions
of this Agreement shall be severable and if any phrase, clause, sentence, or provision of this
Agreement is declared to be contrary to the constitution of any party state or of the United

App. 93

States or the applicability thereof to any government, agency, person, or circumstance is held
invalid, the validity of the remainder of this Agreement and the applicability of the remainder
of this Agreement to any government, agency, person, or circumstance shall not be affected
thereby. If this Agreement shall be held contrary to the constitution of any state party hereto,
the Agreement shall remain in full force and effect as to the remaining states and in full force
and effect as to the state affected as to all severable matters.
MD. CODE ANN., CORR. SERVS. § 8-411

§ 8-412. Enforcement of agreement
All courts, departments, agencies, officers, and employees of the State and its political
subdivisions shall enforce the Agreement and cooperate with one another and other party
states in enforcing the Agreement and effectuating its purpose.
MD. CODE ANN., CORR. SERVS. § 8-412

§ 8-413. Punishment for escape from temporary custody
If an individual legally detained and confined in a correctional institution in this State, who,
by reason of application of the Agreement, is delivered into temporary custody of a party state
as provided in § 8-407 of this subtitle (Article V of the Agreement) and subsequently escapes
or attempts to escape from the temporary custody, the escape or attempt to escape shall be
punishable under the laws of this State as if the individual had escaped or attempted to
escape from a correctional institution in this State.
MD. CODE ANN., CORR. SERVS. § 8-413

§ 8-414. Transfer of inmate
The managing official of a correctional institution in this State shall transfer an inmate as
required by operation of the Agreement.
MD. CODE ANN., CORR. SERVS. § 8-414

§ 8-415. Duties of the attorney general
The Attorney General is designated as the officer to carry out the provisions of § 8-409 of this
subtitle (Article VII of the Agreement) and to adopt regulations as stipulated in that section.
MD. CODE ANN., CORR. SERVS. § 8-415

App. 94

§ 8-416. Actual receipt of notice required
As to any request by an individual confined in another party state for trial in this State,
written notice may not be deemed to have been delivered to the prosecuting officer and the
appropriate court of this State in accordance with § 8-405(a)(Article III (a) of the Agreement)
of this subtitle and notification may not be deemed to have been given in accordance with §
8-405(d) or § 8-406(b) of this subtitle (Article III (d) and Article IV (b) of the Agreement) until
the notice or notification is actually received by the appropriate court and the appropriate
State's Attorney of this State, the State's Attorney's deputy or assistant, or any other person
empowered to receive mail on behalf of the State's Attorney.
MD. CODE ANN., CORR. SERVS. § 8-416

§ 8-417. Determination of credit for time served
An individual delivered to the custody of another party state under this subtitle shall be
allowed or shall forfeit any diminution of the individual's term of confinement under Title 3,
Subtitle 7 of this article as may be determined by the Commissioner of Correction in each
case.
MD. CODE ANN., CORR. SERVS. § 8-417

§ 3-112. Commitment of defendant
(a)(1) In this section, “designated health care facility” means:
(i) a State facility as defined in § 10-101 of the Health--General Article;
(ii) a State forensic residential center; or
(iii) a hospital or private residential facility under contract with the Health Department
to house and treat individuals found to be incompetent to stand trial or not criminally
responsible.
(2) “Designated health care facility” does not include a correctional or detention facility or
a unit within a correctional or detention facility.
(b) Except as provided in subsection (f) of this section, after a verdict of not criminally
responsible, the court shall order the defendant committed to the facility that the Health
Department designates for institutional inpatient care or treatment.
(c) If the court commits a defendant who was found not criminally responsible primarily
because of a mental disorder, the court may order the Health Department, as soon as possible
after the defendant's admission, but not to exceed 48 hours, to:
(1) evaluate the defendant;

App. 95

(2) develop a prompt plan of treatment for the defendant under § 10-706 of the Health-General Article; and
(3) evaluate whether there is a substantial likelihood that, without immediate treatment,
including medication, the defendant will remain a danger to self or the person or property
of another.
(d) If the court commits a defendant who was found not criminally responsible primarily
because of mental retardation, the Health Department shall designate a facility for mentally
retarded persons for care and treatment of the committed person.
(e) If the court commits a defendant to the Health Department under subsection (b) or (d) of
this section, the Health Department shall:
(1) admit the defendant to a designated health care facility as soon as possible, but not
later than 10 business days after the Health Department receives the order of
commitment; and
(2) notify the court of the date on which the defendant was admitted to the designated
health care facility.
(f) If the Health Department fails to admit a defendant to a designated health care facility
within the time period specified in subsection (e)(1) of this section, the court may impose any
sanction reasonably designed to compel compliance, including requiring the Health
Department to reimburse a detention facility for expenses and costs incurred in retaining the
defendant beyond the time period specified in subsection (e)(1) of this section at the daily rate
specified in § 9-402(b) of the Correctional Services Article.
(g) After a verdict of not criminally responsible, a court may order that a person be released,
with or without conditions, instead of committed to the Health Department, but only if:
(1) the court has available an evaluation report within 90 days preceding the verdict made
by an evaluating facility designated by the Health Department;
(2) the report indicates that the person would not be a danger, as a result of mental
retardation or mental disorder, to self or to the person or property of others if released,
with or without conditions; and
(3) the person and the State's Attorney agree to the release and to any conditions for
release that the court imposes.
(h) The court shall notify the Criminal Justice Information System Central Repository of each
person it orders committed under this section.
MD. CODE ANN., CRIM. PROC. § 3-112

App. 96

